<html>
<title> - [H.A.S.C. No. 115-59] U.S. DEFENSE STRATEGY IN SOUTH ASIA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                         [H.A.S.C. No. 115-59]








                  U.S. DEFENSE STRATEGY IN SOUTH ASIA

                               __________





                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 3, 2017












[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     











                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
27-562 PDF                WASHINGTON : 2018                 




























                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Fifteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
JOE WILSON, South Carolina           ROBERT A. BRADY, Pennsylvania
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
MIKE ROGERS, Alabama                 JIM COOPER, Tennessee
TRENT FRANKS, Arizona                MADELEINE Z. BORDALLO, Guam
BILL SHUSTER, Pennsylvania           JOE COURTNEY, Connecticut
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            MARC A. VEASEY, Texas
MIKE COFFMAN, Colorado               TULSI GABBARD, Hawaii
VICKY HARTZLER, Missouri             BETO O'ROURKE, Texas
AUSTIN SCOTT, Georgia                DONALD NORCROSS, New Jersey
MO BROOKS, Alabama                   RUBEN GALLEGO, Arizona
PAUL COOK, California                SETH MOULTON, Massachusetts
JIM BRIDENSTINE, Oklahoma            COLLEEN HANABUSA, Hawaii
BRAD R. WENSTRUP, Ohio               CAROL SHEA-PORTER, New Hampshire
BRADLEY BYRNE, Alabama               JACKY ROSEN, Nevada
SAM GRAVES, Missouri                 A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona              ANTHONY G. BROWN, Maryland
STEPHEN KNIGHT, California           STEPHANIE N. MURPHY, Florida
STEVE RUSSELL, Oklahoma              RO KHANNA, California
SCOTT DesJARLAIS, Tennessee          TOM O'HALLERAN, Arizona
RALPH LEE ABRAHAM, Louisiana         THOMAS R. SUOZZI, New York
TRENT KELLY, Mississippi             JIMMY PANETTA, California
MIKE GALLAGHER, Wisconsin
MATT GAETZ, Florida
DON BACON, Nebraska
JIM BANKS, Indiana
LIZ CHENEY, Wyoming

                      Jen Stewart, Staff Director
                Jennifer Bird, Professional Staff Member
                      William S. Johnson, Counsel
                         Britton Burkett, Clerk 
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Dunford, Gen Joseph F., Jr., USMC, Chairman of the Joint Chiefs 
  of Staff.......................................................     5
Mattis, Hon. James N., Secretary of Defense, U.S. Department of 
  Defense........................................................     2

                                APPENDIX

Prepared Statements:

    Smith, Hon. Adam.............................................    60
    Thornberry, Hon. William M. ``Mac''..........................    59

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Langevin.................................................    65
    Mr. Moulton..................................................    67
    Ms. Rosen....................................................    68
    Mr. Scott....................................................    66
    Ms. Speier...................................................    65




                  U.S. DEFENSE STRATEGY IN SOUTH ASIA

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Tuesday, October 3, 2017.
    The committee met, pursuant to call, at 1:03 p.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    The committee welcomes the Secretary of Defense and the 
Chairman of the Joint Chiefs of Staff today for a hearing on 
Afghanistan and South Asia. The Secretary had previously 
indicated that he would be back to discuss the administration's 
approach to this region once it was decided, and that is the 
topic for today.
    I understand that there are many issues facing the 
Department and this committee, but in the interest of time and 
focus, I want to encourage members to confine their questions 
to today's subject.
    United States officially launched Operation Enduring 
Freedom on October 7th, 2001, just about exactly 16 years ago.
    Approximately 2,400 American service members have lost 
their lives in the Afghanistan conflict. Another 20,000 or so 
have been wounded. As this administration formulates its 
policies, the American people and Members of Congress have some 
basic questions, questions such as, does American national 
security still warrant our military presence in Afghanistan? Do 
we have a strategy to succeed or one to avoid failure? How is 
this administration's approach different from previous 
approaches? And can we ever be successful in the face of Afghan 
corruption and Pakistan's duplicity?
    Both Secretary Mattis and General Dunford have considerable 
personal experience with this conflict, and I believe that they 
are as authoritative as anyone in helping provide answers to 
our questions and to chart the way forward. But these 
fundamental issues do need to be discussed openly for the 
American people and for those who have sacrificed over the last 
16 years. That is the reason we are here today.
    Mr. Smith.
    [The prepared statement of Mr. Thornberry can be found in 
the Appendix on page 59.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    And I think the chairman raised all of the questions that 
need to be raised. This is obviously a very, very difficult 
part of the world. We clearly have national security interests 
in how Afghanistan is governed, and Pakistan as well, going 
back to 2001, when the then Afghanistan government led by the 
Taliban allowed Al Qaeda to have safe haven to plot and plan 
terrorist attacks against the U.S., including 9/11. Making sure 
that we don't return to those days is clearly in our national 
security interests.
    But what is not as clear is how we do that, and what the 
cost is of our current effort. Afghanistan is a very difficult 
place to govern. And I think one of the things that concerns 
most members of this committee and most people in the country 
is we understand that it is a fragile situation. We have been 
hearing that for, as the chairman mentioned, 16 years.
    If we are there for another 20, I envision that whoever is 
sitting in those seats at that point would be having the same 
conversation, and I think that is my one big question, how do 
we get to the point where we can reduce our commitment in 
Afghanistan so that it is not an open-ended commitment and a 
blank check?
    The President said that in his remarks when he rolled out 
his strategy, that it wasn't going to be open-ended, it wasn't 
going to be a blank check. Absent from that was what that meant 
and how we would go about achieving that very worthy goal. And 
I think that is my biggest question.
    And the second question to that would be while granting 
that there are risks in pulling out, there are obviously risks 
in staying there. So, what happens under the two different 
scenarios? Because it would be great if we were able to bring 
our troops home and commit our resources elsewhere. And the 
longer we stay there, the less it looks like it is going to 
move us towards the positive outcome that we want.
    So, are we envisioning just a prolonged stalemate where we 
figure we cannot leave, because if we do it will get worse? Or 
do we actually think we can get to the point where we go beyond 
prolonged stalemate and get to a more positive outcome, which 
is simply--you know, paraphrasing one of the questions the 
chairman asked. But those are the questions I think I am most 
interested in.
    I appreciate both of our witnesses being here, and 
obviously their tremendous service to our country.
    With that, I yield back.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 60.]
    The Chairman. Again, Mr. Secretary, General Dunford, thank 
you all for being here. We will turn the floor over to you.

 STATEMENT OF HON. JAMES N. MATTIS, SECRETARY OF DEFENSE, U.S. 
                     DEPARTMENT OF DEFENSE

    Secretary Mattis. Chairman Thornberry, Ranking Member 
Smith, distinguished members of the committee, I appear before 
you following the tragic event in Las Vegas. The Department of 
Defense is staying closely linked with the intelligence 
community, and we remain alert to law enforcement's assessment 
of events.
    You on this committee are keenly aware of the complex and 
volatile security environment our country faces today. Russia 
continues to invest in a full range of capabilities designed to 
limit our ability to project power, erode U.S. influence and 
undermine NATO's [North Atlantic Treaty Organization's] 
transatlantic alliance.
    China is focused on limiting our ability to project power 
as well, and weakening our position in the Indo-Pacific region, 
even as we work to find common ground in confronting North 
Korea's provocative actions.
    The international community, as reflected by the two latest 
unanimous Security Council sanctions resolutions, is focused on 
the destabilizing threat posed by North Korea and Kim Jong-un's 
relentless pursuit of nuclear and ballistic missile 
capabilities. The Defense Department supports fully Secretary 
Tillerson's efforts to find a diplomatic solution, but remains 
focused on defense of the United States and our allies, per 
President Trump's orders.
    In the Middle East, Iran continues to project malign 
influence across the region. While we continue to make gains 
against the terrorist enemy in Syria, Iraq, and elsewhere, in 
Afghanistan we have faced a difficult 16 years. General 
Nicholson, our NATO and United States field commander, with 
troops from 39 nations has blunted the terrorists' offensive 
moves in Afghanistan.
    NATO's strengths and support of the improving Afghan 
security forces and disarray among various enemy groups have 
caused the Taliban to expend resources, constrain their 
movements, and limit the Taliban's ability to conduct major 
offensives. Beginning last month, and for the first time in 
this long fight, all six Afghan military corps are engaged in 
offensive operations.
    During these recent months, there have been fewer civilian 
casualties as a result of coalition operations, although 
regrettably, Taliban high-profile attacks on civilians continue 
to murder the innocent. While the Taliban still attempts to 
seize district or provincial centers before the end of this 
fighting season, they have generally been forced into 
decentralized, small-scale ambushes and the use of improvised 
explosive devices.
    Importantly, the rate of Afghan National Security Force 
casualties has reduced from last year.
    As you know, I just returned last week from a trip to India 
and Afghanistan and can report that General Nicholson and the 
NATO team are holding the line. Forecasts of a significant 
Taliban offensive remain unfulfilled. Violence and progress do 
coexist in Afghanistan, but the uncertainty in the region and 
the NATO campaign have been replaced by certainty due to the 
implementation of President Trump's new South Asia strategy.
    This strategy has been welcomed almost uniformly by leaders 
in the South Asia region as well as the 39 countries 
contributing troops to the NATO-led campaign.
    We must always remember we are in Afghanistan to make 
America safer and ensure that South Asia cannot be used to plot 
net transnational attacks against the U.S. homeland or our 
partners and allies. Our goal is a stable and secure South 
Asia. A political settlement in Afghanistan is only possible if 
the Taliban rejects support of or conduct of terrorism.
    Based on the intelligence community analysis and my own 
evaluation, I am convinced we would absent ourselves from this 
region to our ultimate peril. Our new conditions-based approach 
has set the stage for regional and Afghanistan national change. 
Our new strategy, vigorously reviewed and approved by President 
Trump is, quote ``R4+S'' unquote. Which stands for regionalize 
it, realign it, reinforce it, and reconciliation, coupled with 
sustaining it.
    The first `R,' to regionalize it, recognizes challenges 
exist beyond Afghanistan and adopts a geographic framework with 
a holistic comprehensive view. India, Pakistan, Iran, Russia, 
and China were considered at the outset, rather than focusing 
only on Afghanistan and then introducing external variables 
late in our strategic design. My visit last week to India was 
in part to thank them for their continued generous development 
support in Afghanistan.
    We also discussed ways to expand our collaboration to 
improve long-term regional stability and security. We will 
firmly address Pakistan's role. NATO's demands need to be heard 
and embraced in Islamabad.
    The second `R,' to realign, signifies that we were shifting 
our main effort to align more advisors who can provide training 
and advisory support at the battalion and brigade level. The 
fighting will continue to be carried out by our Afghan 
partners, but our advisors will accompany tactical units to 
advise and bring NATO support to bear when needed.
    Make no mistake, this is combat duty for our troops, but 
the Afghan forces remain in the lead for the fighting.
    We have now approximately 11,000 troops in Afghanistan, 
alongside 6,800 from NATO and coalition partners and 320,000 
Afghan National Security Forces. From these numbers, you can 
see the Afghan forces remain the main effort and we are 
supporting them not supplanting or substituting our troops for 
theirs.
    The third `R' is reinforce, and that is seen in our 
addition of over 3,000 U.S. troops arriving in the coming 
months to extend NATO's advisory effort to Afghan troops that 
are currently without. NATO Secretary General Stoltenberg and I 
together toured Afghanistan last week, sending a message of the 
NATO coalition's unity. He is also reaching out to our allies 
to increase their troop levels.
    In light of our new strategy, 15 nations have signaled that 
they will increase their support. Again, certainty now having 
replaced uncertainty, we are looking to our partners to provide 
more troop and financial support.
    The last `R' is reconcile, and that is the desired outcome 
from our military operations, convincing our foes that the 
coalition is committed to a conditions-based outcome, we intend 
to drive fence-sitters and those who will see that we are not 
quitting this fight, to reconcile with the Afghan national 
government. Our goal is a stabilized Afghanistan achieved 
through an Afghan-led, Afghan-owned peace process.
    War is principally a matter of will, and the international 
community is now making clear that it will stand alongside the 
Afghans committed to this fight. As we have shifted to a 
conditions-based strategy, not time-based or troop number-
focused, ambiguity has been removed. The elements of this 
strategy are a tangible demonstration of our resolve. All this 
will be carried out by, with, and through our Afghan partners 
and within the coalition framework ensuring this campaign is 
politically, fiscally, and militarily sustainable.
    Our Afghan partners, who continue to take the lead, fight 
most effectively where NATO and partner advisors are alongside 
them. As President Ghani said to the United Nations General 
Assembly in New York, ``Afghans are determined to fight. No one 
should mistake our will to defend our country.''
    I am heartened and impressed by the international reception 
to our strategy. I am confident we will see heightened levels 
of support from our allies and partners in the months ahead. As 
NATO Secretary General Stoltenberg said last week in Kabul, 
this is about making sure that Afghanistan does not once again 
become a safe haven for international terrorists. And the best 
way of doing that is to enable the Afghans to have defense 
security forces which are strong enough to do that.
    We are already starting to see the psychological impact of 
this new strategy, both militarily in the field as well as 
through President Ghani and the Afghan government's commitment 
to reform.
    President Ghani recognizes that fighting corruption and 
accelerating institutional reform across government are 
critical to success. The recently launched U.S.-Afghan Compact, 
outlining more than 200 measurable benchmarks for reform, 
demonstrates our shared emphasis on these goals.
    Our South Asia strategy reinforces to the Taliban that the 
only path to peace and political legitimacy is through a 
negotiated settlement. It is time for the Taliban to be forced 
to recognize they cannot kill their way to power, nor can they 
provide refuge or support to transnational terrorists who 
intend to do us harm.
    I want to close by recognizing the need to maintain the 
closest possible dialog with Congress and specifically with 
this committee. This committee has long appreciated that the 
defense caps mandated in the Budget Control Act [BCA] imposed 
the greatest inhibitor to our defense. Without relief from the 
BCA caps, our air, land, and sea fleets will continue to erode, 
our path to modernization will be shortchanged, and our 
technological competitive advantage lost.
    I trust I will have your support for lifting the defense 
spending caps as we address today's complex and increasingly 
volatile national security environment.
    Thank you.
    The Chairman. Thank you.
    General Dunford.

STATEMENT OF GEN JOSEPH F. DUNFORD, JR., USMC, CHAIRMAN OF THE 
                     JOINT CHIEFS OF STAFF

    General Dunford. Chairman Thornberry, Ranking Member Smith, 
distinguished members of the committee, thanks for the 
opportunity to join Secretary Mattis in providing an update on 
the South Asia strategy.
    In recent months, our commander in Afghanistan, General 
Nicholson, described the current condition in the country as a 
stalemate. Secretary Mattis has testified that we are not 
winning. And members of this committee have made similar 
statements. This situation has developed since the NATO mission 
in Afghanistan transitioned to an advisory effort.
    Since 2015, we have advised and accompanied Afghan special 
operations units at the tactical level, but our advisory effort 
for conventional forces has generally been limited to the 
Afghan army corps and institutional level. We also reduced the 
aviation, artillery, and intelligence support provided to the 
Afghan forces. This construct did not provide Afghan 
conventional forces with the support they needed to succeed in 
combat operations.
    My military assessment is that we drew down our advisory 
effort and combat support for the Afghan forces too far and too 
fast. As a result, the Taliban expanded territorial and 
population control and inflicted significant casualties on the 
Afghan army and police, while we lost campaign momentum. Last 
spring, Secretary Mattis directed the Department to conduct a 
detailed failure analysis to identify the root causes for the 
lack of progress in Afghanistan and he directed we provide 
targeted solutions.
    Informed by these findings, our commanders developed, and 
Secretary Mattis approved, a new operational approach to break 
the stalemate and bolster Afghan capabilities. The new approach 
supports the President's broader strategy by expanding our 
advisory efforts to the tactical level, increasing the combat 
support we provide to our Afghan partners and enhancing 
authorities.
    We believe these adjustments will improve the ability of 
the Afghans to conduct offensive operations, defend critical 
terrain, and reduce Afghan casualties. The emphasis is on 
providing effective support to the over 300,000 Afghans we have 
trained and equipped, so they can secure their own country.
    Going forward, we will support President Ghani's efforts to 
reorganize the Afghan forces, which will expand special 
operations units while at the same time reducing less effective 
units. We will also continue to develop a capable, sustainable 
Afghan air force. And finally, we will enhance and expand our 
own counterterrorism operations in the region.
    By next spring, this approach will have our most senior 
capable and operational experienced leaders advising at the 
decisive point in Afghan operations. Their efforts will be 
fully enabled by the support and the authorities they need to 
take the fight to the enemy--that is specifically for the 
Afghans to take the fight to the enemy.
    As we implement the strategy, we are also tackling 
corruption, the single greatest roadblock to progress. In my 
judgment, our military objectives for this new strategy are 
clear and they are achievable.
    The first is we defeat ISIS [Islamic State of Iraq and 
Syria] and Al Qaeda in Afghanistan and we ensure other 
terrorist groups are unable to launch attacks against the 
homeland, U.S. citizens, or our allies. We are going to further 
develop Afghan forces that are capable of managing the residual 
violence with limited international support.
    We will support President Ghani's effort to ensure that key 
population and economic centers are secure, and we will provide 
an enduring counterterrorism partnership with Afghanistan to 
protect our shared interests in South Asia.
    As Secretary Tillerson has recently outlined, this entire 
effort is intended to put pressure on the Taliban and have them 
understand they will not win a battlefield victory, so they 
will enter an Afghan-led peace process to end the conflict.
    And with that, Chairman, I am ready to take questions.
    The Chairman. I appreciate it, sir.
    I guess I want to--just basically have one question. A 
former military commander in Afghanistan directed me to this 
editorial written by former U.S. ambassador to Afghanistan, 
Ronald Newman. It appeared in the Washington Post on August 
9th. The first paragraph says in theory, U.S. strategy in 
Afghanistan has been to train an Afghan army that can fight Al 
Qaeda, the Taliban, and the Islamic State, and then largely to 
withdraw. After 16 years, it is not surprising that many people 
think that strategy has failed. In fact, it hasn't really been 
tried.
    And then he goes through a brief history of our efforts, or 
lack of efforts, of deadlines, of not meeting commitments and 
so forth and concludes by saying that much of the rush to 
failure has been Washington driven.
    And so, I guess I would like each of you to comment on the 
extent to which the lack of stability in approach, the lack of 
stability in commitment, the lack of stability in funding, as 
we begin the ninth consecutive year under a CR [continuing 
resolution], to what extent those Washington driven aspects 
have contributed to Afghanistan not being as successful so far 
as we would like it to be.
    Secretary Mattis. Chairman, war is primarily a matter of 
willpower and what we have to demonstrate, based on where the 
situation is at this time, is an implacable will that the 
international community--and that means America first among all 
of them, is going to stand by this effort. And that has to do 
with standing by certain policies, standing by the Afghan 
military, standing by budgets that give predictability so we 
keep our own military strong.
    It is all part of setting a cohesive framework within which 
we can achieve tangible results and not face what Ranking 
Member Smith rightly is concerned with, a prolonged stalemate. 
When you set timelines, you are telling the enemy what you will 
not do--we will not fight past a certain day. When you set 
troop caps, you are saying what you won't do.
    And I believe right now, the most important thing is to let 
the enemy know they are not going to win, and that is because 
we now have over 300,000 Afghan forces in the field that 
through some very severe fighting have earned our support, as 
we try to drag this toward an end of this war, toward 
reconciliation.
    Chairman.
    General Dunford. Chairman, you and many members of the 
committee have visited Afghanistan multiple times and I know in 
each of the visits one of the issues that has been raised is 
hedging behavior, hedging behavior by the Taliban, hedging 
behavior by regional actors, in particular Pakistan.
    One of the primary drivers of that hedging behavior, which 
was inhibiting us in actually making progress in a campaign, 
was a lack of certainty and a lack of confidence that the U.S. 
commitment, the international coalition commitment would be 
enduring, and particularly for probably 4 or 5 straight years, 
there was always a sense, and it has been described as kind of 
the Y2K effect in Afghanistan--it was always a sense that when 
December came, the coalition would depart.
    I think one of the most significant changes in the strategy 
with conditions-based is it leverages the center of gravity, 
the source of strength in Afghanistan which is the confidence 
of the Afghan people and the confidence of the Afghan forces.
    And on the flip side, it actually undermines the confidence 
in the Taliban because they are not really trying to deal with 
us or wait us out. As Secretary Mattis said, it is a clash of 
wills. They now realize that the 300,000 Afghan soldiers and 
police that have been built, they are going to have the support 
they need to defeat the Taliban and to bring the Taliban to the 
peace table.
    So, I think that is probably, in my judgment, how the 
hedging behavior back here in Washington, lack of clarity has 
affected the campaign.
    The Chairman. Thank you.
    Mr. Smith.
    Mr. Smith. Just sort of following up on that question, I 
think you--right we have had timelines. We have had troop caps. 
We have also consistently exceeded those troop caps and 
consistently gone beyond those timelines. So, if the Taliban 
were actually paying attention, at some point, they would come 
not to rely on those timelines or those troop caps.
    And I guess what you have outlined is kind of what we have 
all been hoping for 16 years, is if we just stay there long 
enough, in great enough numbers, Afghanistan will eventually be 
able to defend itself, and we won't have to be there anymore.
    I think the lack of confidence in that, and I hope that 
that editorial that was written is correct, comes from more 
than just the lack of commitment, it is the complications of 
the terrain, what does reconciliation look like? When do the 
Taliban come to the table?
    And like I said, what I think we are really looking for is 
some confidence--let's say that we do it conditions-based and 
we do all the stuff--for how long? And I am not looking for a 1 
year, 2 year--you know, 2 years, 12 months exactly, but what 
are the factors that give you confidence that we won't be in 
the scenario that I just described? That even if we do this 
more open-ended commitment that we won't be having the same 
conversation 20 years from now?
    Because this is not Afghanistan's first time at this. As 
everyone knows, people have come and gone from Afghanistan for 
a very long time. And I get the feeling that as far as the 
Taliban are concerned, we can come in and say we are going to 
be there for 50 years, and they say fine, we will be there for 
51.
    So what is the confidence you have that this change can 
address not just whatever shortcomings might have been in 
previous administration strategies, but the reality of 
Afghanistan and Pakistan?
    Secretary Mattis. Congressman, we--the men and women in 
this world live by hope. They hope tomorrow is going to be 
better. The Taliban could hope repeatedly that whether we 
overstayed what timeline we gave ourselves, we had still said 
we are leaving as soon as we can. What we are saying now is 
there is going to be an end to the war. It is going to end 
because we don't want the threat to America. We don't want the 
threat to our allies. And the best way to do that, as Secretary 
General Stoltenberg put it, make certain the Afghans have a 
force that can deal with this internally.
    Certainly, it is going to take our mentors. What 
reconciliation looks like goes back some years in terms of the 
conditions. But it is Afghan-led. It involves the Taliban 
rejecting terrorism and supporting people who have attacked 
this country. It involves them to quit killing--to stop killing 
the Afghan people and live by the constitution. That is a 
pretty low bar if they choose to rejoin the political process.
    If they don't, we are going to make it extremely 
uncomfortable for them by training, advising, assisting the 
Afghan forces. And I think what we don't want is some transient 
success. So we have pushed this forward in a way, in an 
implacable way, because that is the surest way to end this 
faster, rather than stringing it along--if that addresses your 
question.
    Mr. Smith. It does to some degree. And I understand that my 
question is unanswerable past a certain point. We don't know, 
you know, what it is going to take to really break the Taliban, 
but that does put us in the position.
    I guess, put it just one different way. When the President 
says no blank check, no open-ended commitment, what does that 
mean? Where does the check stop? Where does the commitment 
stop?
    Secretary Mattis. One point is, sir, that Secretary General 
Stoltenberg when he was getting off the plane when we came out 
of theater, said he is going back to Brussels to build more 
support. In other words, we are going to have more people 
aligned with us in terms of financial and troop contributions 
because of our--the certainty we have replaced the uncertainty 
with.
    It also means that we are going to see a declining use of 
American mentors as this army gets up on the step. We simply 
cut back too soon. We pulled the training wheels off the bike 
before it was fully ready to be balanced and move against the 
Taliban. This was a concern from our intelligence agency when 
we pulled all of our forces down to the level they were at. And 
so we are going to have to make up for it, and we have to 
inherit where it lies now.
    But it is not an unending commitment. You will see a 
degrading number of American forces, a declining number of 
American forces, as you see an improving capability on the part 
of the Afghan forces conditions-based.
    Mr. Smith. Understood. And I know that Congressman Jones is 
next, and he will drill down on this in much greater degree 
than I did, so I will let that go. And the only other question 
I have, and it is largely rhetorical, but I would nonetheless 
like your response. You mentioned at the conclusion of your 
remarks the budget caps that the Defense Department faces and 
the CRs that have been presented to you have been one of the 
factors that have made it difficult to maintain a consistency 
of commitment to Afghanistan.
    If we were to reduce revenue by $1.5 trillion over the 
course of 10 years, would that not make it just a little bit 
more difficult to provide the Department of Defense the money 
that it needs to do what it needs to get done?
    Secretary Mattis. Chairman, probably someone with better 
financial background than myself could give a better answer. I 
would just say that as I understand the process right now it is 
to reduce the taxes to build the economy and the growth is 
going to accrue more government revenue. But this is not an 
area that I would call one of my expertise.
    Mr. Smith. Fair enough--and I know that is the hope. There 
is no credible economist--even conservative economists say that 
that is absurd under our current scenario, that somehow if you 
cut taxes dramatically for everybody you are going to magically 
wind up with more money.
    If the top rate was, like, 90 percent or we had a capital 
gains rate of like 66 percent and we were cutting it down from 
there, but cutting it from where we are at to right now, making 
a commitment to our national security and reducing the revenue 
by at least $1.5 trillion over 10 years is, I think, 
significantly inconsistent, and that is a point that I will 
return to at other hearings.
    I yield back.
    Mr. Wilson [presiding]. Thank you, Mr. Smith. And we are 
going to proceed--Chairman Thornberry has gone to the floor to 
vote so that the committee can continue meeting and then soon 
as he returns obviously we are going to proceed.
    And at this time, we now have Mr. Jones of North Carolina.
    Mr. Jones. Mr. Chairman, thank you, and Mr. Secretary and 
General, thank you as well.
    I wrote to President Trump on July 18th asking him to 
please come to Congress and ask us to have a debate on a new 
AUMF [authorization for use of military force]. Now here is a 
sentence from one of his tweets that I would like to read: 
``Let's get out of Afghanistan. Our troops are being killed by 
the Afghanis we train and we waste billions there. Nonsense. 
Rebuild the United States of America.'' That is his tweet, not 
mine.
    In addition, that brings me to this, General Mattis, in a 
Politico article in August of this year titled ``Trump 
Administration Opposes Effort to Rein in War Powers,'' they 
quote in this sentence as you--not quoting you, but it makes 
reference to you: ``That stance appears to contradict comments 
by Mattis, who has endorsed passage of a new AUMF to govern the 
war against ISIS. Mattis chastised Congress at a March Senate 
hearing, testifying that he has not understood why the Congress 
hasn't come forward to at least debate on AUMF.'' Well, that is 
the fault of our leadership under Paul Ryan, to be honest with 
you. He could ask that we have a debate but he doesn't do it.
    My two questions--that is one, if you will just write that 
down. The other one is going to be as quick as well. The waste, 
fraud, and abuse in Afghanistan--we have spent over $1 
trillion. You talked about the soldiers and Marines who have 
been killed--thank you for remembering and sharing the 2,300/
2,400, or Mac Thornberry did--over 20,000 wounded.
    We have been paying ghost soldiers to help the Americans 
over there. They don't even know who they are, but we have 
spent billions and billions of dollars. DOD [Department of 
Defense] paid $6 million to buy nine goats. We don't know where 
the goats are, by the way, but that is DOD spending that money.
    That is why the position on sequestration, I somewhat agree 
with you. I didn't vote for it but in all fairness we keep 
wasting the taxpayers' money. As Mr. Trump said, not only in 
that one sentence, but he said it 30 times, and I have all 30 
of his quotes.
    The one that really of all the waste, fraud, and abuse that 
have just about shocked the people of the Third District of 
North Carolina, the home of Camp Lejeune and Cherry Point, was 
the one that the U.S. Department of Defense signed a contract 
with a British firm called New Century Consulting, where we 
paid them $50 million to train Afghans to be intel officers.
    Out of that they bought seven luxury cars. The firm in 
Britain bought seven luxury cars--an Aston Martin, a Bentley, 
Porsches, and four other luxury cars. Plus, they paid their 
wives--talking about the executives--$400,000 each.
    Go back to the AUMF and then I want to ask you this--who on 
your staff is responsible for reporting to you about all this 
waste, fraud, and abuse that John Sopko has done a great job of 
informing Congress and the American people, and it keeps going 
on and on.
    It has got to stop because it is going to hurt the Nation, 
which is $20 trillion in debt, and it is hurting our military. 
But how can you justify--not you personally--how can we justify 
spending more and more money when we can't account for the 
waste, fraud, and abuse in Afghanistan?
    So, there are my two questions, and I appreciate your 
answers.
    Secretary Mattis. Congressman, we cannot justify wasting 
any money, and I am committed to finding who is responsible 
every time we find a case like this, holding them accountable 
and preventing it in the future. And I need to look into this 
New Century Consulting piece, and I will be getting back to you 
on this in detail, because I don't believe you can waste 
government money.
    One of the things we are doing to make certain there are no 
more ghost soldiers--and by the way President Ghani has 
embraced it now because he is working on his ghost teachers--
granted, not something we are putting money into. But he has 
got the same problem in his education system--because we are 
biometrically enrolling every one of them. And if necessary I 
will use U.S. paymasters, but we are not going to hand the 
money over and hope it gets to the right places in terms of 
fighting this war.
    The biometrics alone will remove a lot of this problem, 
because the only way to be entered is to be there. So the ghost 
soldier piece will be more a matter of monitoring their 
continued status than it will be having corruption introduced 
at the beginning.
    This comes out of the chairman's failure analysis that I 
directed him to do and what do we do about the kind of things 
you rightly bring up to us here today. But we are not going to 
continue that.
    And as far as the AUMF goes, my point is that we need the 
unity of the American government and with the Congress involved 
that brings the unity of the American people to this fight. And 
I recognize we have to win your trust and your confidence on 
this. And the fact that the Department of Defense is big 
notwithstanding I intend to do that.
    Mr. Jones. Thank you, sir. Thank you, Chairman.
    Mr. Wilson. Thank you, Mr. Jones. We now proceed to Mr. 
Larsen of Washington State.
    Mr. Larsen. Thank you, Mr. Chairman.
    A couple questions. First off, with regards to the 
regionalization or `R' in the new strategy--in 2004 the 
administration at the time designated Pakistan as a non-NATO 
ally, making Pakistan eligible for certain preferences, 
especially with regards to the support of its military.
    Given that one of the points that you have made and the 
President has made about the administration taking a harder 
line towards Pakistan regarding support of the Taliban, are you 
ready now to revoke Pakistan's non-NATO ally status? If yes, 
can you give us the reasons, and if not, why not?
    Secretary Mattis. Congressman, what we are doing right now 
is we are aligning what Department of Treasury, Department of 
Defense, the intelligence community, Department of State, say, 
this is what we must ask Pakistan to do to change its behavior. 
At the same time, we are aligning that with NATO so we have 39 
other nations that will also be reinforcing this.
    As you know, I just visited New Delhi about the situation 
they face on their border. There are a number of ways, based on 
a very recent visit by the Pakistan chief of army staff to 
Kabul, about 3 days ago, that we can help Pakistan to see its 
way forward to do what is in its own best interest.
    We will do this in a holistic, integrated way; holistic 
means whole of government and integrated with our allies and 
that is across South Asia. This strategy is not exclusive. In 
other words, any nation that wants to fight back against 
terrorism and reduce this threat to all nations is more than 
welcome.
    It is not exclusive with Pakistan, it is inclusive, and 
that is why we started with a regionalized strategy. As we move 
this forward, we are going to have to find common ground with 
Pakistan. And, as you know, the international community does 
not stand for terrorism. So there are decisions Pakistan must 
make. They have lost more troops than probably any other 
fighting terrorists.
    So on the one hand, we have the problems of havens and 
other things that we have all registered. And yet, at the same 
time, they have actually been fighting the terrorists. We have 
got to get this aligned regionally and solve this problem. And 
we have options to deliver----
    Mr. Larsen. And if I could just note in 16-plus years I 
have probably shared the frustrations of many on this committee 
about Pakistan as well as the limited number of successes that 
we have had with Pakistan.
    Secretary Mattis. Right.
    Mr. Larsen. Is revocation of non-NATO allies status on that 
list of possibles?
    Secretary Mattis. I am sure it will be.
    Mr. Larsen. General Dunford, you just came back from China, 
visited one border, the Chinese-North Korean border, but there 
is a 90-kilometer border between China and Afghanistan. It is 
not very easy to get to, but it does exist. Did you have any 
discussions with China on the regionalization issue and what 
role they can play--it can play?
    General Dunford. Congressman, at really a minimum--that 
trip was really focused on North Korea--had a few sidebar 
conversations on Afghanistan. Clearly China has, you know, 
there are many areas where our interests diverge. There are 
some interest areas where they converge and I think 
counterterrorism is one of those areas where our interests 
converge, particularly in Afghanistan.
    And I have certainly suggested to the Chinese interlocutors 
that they could play a more productive role, particularly in 
development and assisting with the counterterrorism effort on 
the border.
    Mr. Larsen. Thank you. I yield back.
    The Chairman [presiding]. Gentlelady from Guam.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    First, I would like to go on record to thank Secretary 
Mattis and General Dunford. It is good to see both of you again 
today, and I will take a moment to express my appreciation to 
you and the Department of Defense for providing the security to 
the people of Guam from North Korea, and we do appreciate the 
Department's efforts to have the THAAD [Terminal High Altitude 
Area Defense] battery protecting the people of Guam. Thank you 
very much.
    My expectation is that today's hearing is one of the first 
steps in drawing out what an Afghanistan strategy that the 
administration puts out would look like.
    Secretary Mattis, at your recent speech at the Air Force 
Association conference, you stressed the importance of not only 
listening to our allies, but be willing to be persuaded by 
them.
    So can you point out to me pieces of this strategy where 
the administration and the Department of Defense have been 
persuaded by our allies, or would solicit input from the 
international community?
    And what portions of the strategy do our allies and 
partners have concerns with?
    Secretary Mattis. Congresswoman, right now I would just 
tell you that to be willing to be persuaded, the allies were 
100 percent persuaded by our approach to drive towards 
reconciliation.
    It has received near universal agreement. I say near 
because I haven't talked to all of them. But during the--while 
we were putting this strategy together, I have met three times 
with various groups of allies; from the Defeat ISIS group, 
because of the similarities in the counterterrorism campaign, 
and with the Ministers of Defence, there in Brussels--the NATO 
ministers, as well as in the Pacific when I was at the Shangri-
La Dialogue where I talked to many of my counterparts there.
    They made it very clear that they believe that this enemy 
had to be defeated in Afghanistan, or whether it was in Europe 
or in the Pacific, we were going to see a wider spread.
    So, I think this is why we have seen such--such support, 
frankly, from across our allies since we have rolled it out. 
From Brussels and the NATO nations to New Delhi in India, 
certainly in Kabul where even the housing prices are going up, 
based on the confidence--this is an objective measure we watch 
very closely for what is going on there.
    So we have seen the input. We have heard the input. And it 
has been incorporated into what we have. And we are getting 
good feedback, ma'am.
    Ms. Bordallo. Thank you, Mr. Secretary, I am happy to hear 
that.
    And gentlemen, when do you expect the new strategy to 
produce positive results? What tools and process do you have in 
place to assess progress toward the stated end goal?
    I am aware that the strategy will not have predetermined 
timelines, but I am interested in the Department of Defense's 
plan to monitor progress toward the condition-based goals that 
have been set.
    Either one of you.
    Secretary Mattis. Yes, Congresswoman, we have, in a U.S.-
Afghan Compact agreement with President Ghani's government, we 
have over 200 specific benchmarks, as we attempt to quantify to 
the degree we can--you can't quantify everything, but quantify 
where we can, the progress we are making.
    Furthermore, we have polling going on to see how we are 
doing with the hearts and minds of the people.
    Additionally, we have a separate--by the Joint Chiefs of 
Staff we have a separate assessment that will be going on as we 
look at our own benchmarks that we intend to meet; numbers of 
units that are mentored, this sort of thing.
    But in order to be output oriented, it is going to take a 
little time. That said, I was struck by the degree of 
confidence I saw, politically and militarily, in Afghanistan 
among our coalition troops and among the Afghan leadership, 
military and political, as a result of this strategy.
    So I think the psychological impact is beginning to be 
felt. The Taliban have been unsuccessful in what they have been 
attempting to do, to take a provincial and district center. 
They are still trying, as we speak here today. But also, they 
are starting to fight among themselves due to a loss of some 
key leadership. And because they are just not getting along 
with each other, under the increasing pressure that the Afghan 
forces are placed on. Anything else, Chairman, to add?
    Ms. Bordallo. General.
    General Dunford. I think we will have a pretty good sense 
for the strategy next summer, as our advisory effort is 
revised, and we implement the full advisory effort that is 
informed by the failure analysis that we spoke about earlier. 
Next summer's performance by the Afghan force will be one 
indicator.
    There is also a very important event taking place in 
Afghanistan next year, which is the elections. You know, I 
think the--we will see the Afghan's ability to perform the 
security function associated with the elections as being a very 
good indicator as well.
    Ms. Bordallo. Thank you very much, General, and I yield 
back, Mr. Chairman.
    The Chairman. Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman. To both of you, we are 
deeply grateful for your service, and for the kind of in-depth 
analysis you do on all of these issues to present to the 
President.
    I have a couple questions. Director Coats, the Director of 
the National Intelligence, recently testified to Congress, in 
which he said ``The intelligence community assesses that the 
political and security situation in Afghanistan will almost 
certainly deteriorate through 2018, even with a modest increase 
in military assistance by the United States and its partners.''
    General Dunford, you and the Secretary plan for only a 
modest increase in military assistance. If the intelligence 
community assesses that won't make any difference, then how can 
you defend sending thousands more troops, and how can we ask 
our allies to do the same?
    General Dunford. Congresswoman, I think that is a fair 
question, and I think what the intel community has done is 
provided a snapshot in time. I don't think the intel community 
has assessed several things. One is the revised organizational 
construct of the Afghan forces. They are making some 
significant changes.
    I don't think the intel community has factored in the 
change, the advisory assist effort, and the increased combat 
support that U.S. and coalition forces are providing to the 
Afghans. I don't think the intel community has adequately 
assessed the impact of a conditions-based strategy on the 
confidence of the Afghan people, the confidence of the Afghan 
security forces, or the behavior of other regional actors.
    So Congresswoman, I--you know, again, this is a very 
difficult endeavor. The one thing I am sure of is that the 
strategy will keep the American people safe by preventing Al 
Qaeda and ISIS from conducting attacks on the homeland. But I 
also believe it has a good prospect of allowing the Afghan 
security forces to get to the point where they can secure their 
country on their own.
    Ms. Speier. Do you agree with me that we will have a 
presence in Afghanistan for the foreseeable future, each of 
you?
    General Dunford. Congresswoman, I will take that question 
first. Here is what I would say. In South Asia as a whole, we 
have vital national interests, and I believe those vital 
national interests are enduring. And I believe we will have a 
diplomatic, an economic, and some military presence in the 
region for a long period of time.
    I do believe that the military element of our strategy will 
decrease over time to a sustainable level. What we are 
attempting to do in our overall campaign against terrorism is 
ensure that working by, with, and through local partners, we 
get to the point where we have a politically, a militarily and 
a fiscally sustainable strategy from West Africa, Southeast 
Asia. In Afghanistan, I look at--in that context.
    So while I do think there will be U.S. influence and U.S. 
presence for some time to come, I don't think there will be a 
large footprint of U.S. forces for a long period of time to 
come.
    Ms. Speier. So to be fair to the American people, we should 
make it clear to them that we are not leaving Afghanistan.
    General Dunford. Congresswoman, we should only leave a 
region--again, if you look at our strategies being diplomatic, 
economic, and military, if we didn't have enduring vital 
national interests, and I believe we do, and so I think there 
has to be some presence and some influence. Again albeit in 
different form over time, but there has to be some U.S. 
presence in the region in order for us to advance our interests 
in the region.
    Ms. Speier. Mr. Secretary, do you have any comments on 
that?
    Secretary Mattis. I would agree with the chairman. We have 
a number going in now. It is going to make the Afghan military 
more capable. As they prove themselves and build their own 
capability as the enemy diminishes, certainly our numbers would 
be coming down in a commensurate way, conditions-based as the 
President said.
    Ms. Speier. So what does a diplomatic solution there look 
like? How do we bring the parties together? And what would that 
look like?
    Secretary Mattis. First, we have to remove from the Taliban 
a sense that they don't have to negotiate this, and how they 
can achieve what they want through violence. Once they get that 
through their head, then we are going to peel off some of them. 
And you already see this happening where there is an 
atomization of the Taliban going on because they have lost some 
key leaders. And the ones who have stepped up, frankly, have 
not been as good.
    It has made in some way the reconciliation--political 
reconciliation a little harder because some of the people we 
are dealing with may not represent this new fragmented Taliban. 
But eventually the weakening of the Taliban should put us in a 
position where some of them say, ``That is it; I am not going 
to keep this up.'' Others of them say, ``We are willing to 
negotiate.''
    What does the negotiation look like? They stop killing 
people and stop supporting the terrorists who attacked this 
town and New York City. And at that point, if they are willing 
to live by the constitution, President Ghani has made clear 
that they can come back in. You have already seen parts of it 
actually come over, you know, come over to Ghani's side.
    So it is starting and it is not tidy, but it is ongoing 
now. And that is what you will see continue to move forward as 
we block them militarily from having a chance for victory on 
the battlefield.
    Ms. Speier. Thank you. I yield back.
    The Chairman. Gentlemen, it looks like it is going to be 
maybe another 5 minutes or so before other members come back. I 
could pepper you with questions, but maybe I won't. You have 
had--you have been testifying a lot today.
    So what I think we will do is invite our witnesses to the 
anteroom and the committee will stand in recess for 
approximately 5 to 6 minutes.
    [Recess.]
    The Chairman. The committee will come to order. We 
appreciate you all's patience with our voting schedule. Chair 
recognizes the gentleman from South Carolina, Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman, and Secretary Mattis 
and General Dunford, I want to thank you on behalf of our 
military service members, military families, veterans. There is 
such a reassurance with your service and so greatly appreciated 
your dedication and your persistence on behalf of victory as we 
are proceeding in the global war on terrorism.
    As the grateful dad of an Afghanistan veteran, one of the 
primary concerns that I would like each of you to address is 
the--are the rules of engagement in Afghanistan. During the 
previous administration, I introduced a resolution calling for 
a revision to the existing rules of engagement under Operation 
Resolute Support in Afghanistan in an effort to succeed in the 
complex environment combatant commander's face. What is the 
status of the new rules of engagement for U.S. military efforts 
in Afghanistan?
    Secretary Mattis. Sir, the old rules included both rules--
under rules of engagement and operating principles, included a 
requirement for proximity of the enemy to be engaged by our air 
forces. President Trump has told me that I have the authority 
to change that. So I have removed proximity, and that in itself 
opens the enemy, wherever they are found, to the NATO air 
support, under the NATO OPLAN [operations plan]. So the first 
thing is, we have unleashed that. At the same time, we have had 
a reduction in the number of deaths by innocent people as a 
result of coalition operations, not Taliban.
    And my point is, we will always take every humanly possible 
step to protect the innocent, but the rules themselves permit 
the engaged forces to bring air support and artillery support 
in. Furthermore, by extending the who--which units are being 
advised it means that many Afghan army units that never had 
advisors and had a very convoluted way to get at that air 
support--it wasn't a rule of engagement problem, but it was 
organizational problem; that has been removed as well. If that 
addresses your concerns.
    Mr. Wilson. It does and I truly appreciate the complex 
situation of organizational end rules and you addressing it, 
and again, it is reassuring as a parent. And then Mr. Secretary 
we all want to succeed in Afghanistan and you clearly 
illuminated, or identified the situation and that is that we 
need to eliminate safe havens for terrorists abroad to defend 
American families at home.
    At the same time, I support your efforts for more troops, 
but we have increased deployments meaning fewer ready units at 
home for unforeseen contingencies. Sadly, we have also had the 
recent extended loss of two destroyers, the Fitzgerald and 
McCain and the necessary support for devastating hurricanes. 
The strain on the military is ever-increasing. What can we in 
Congress do to help you face the multiple threats that are 
facing our country?
    Secretary Mattis. Congressman Wilson, I think the most 
important thing is that we get budget predictability and 
certainty because without that we cannot take the--adjust our 
forces and get predictability into our budgets that permits us 
to gain the best bang for the buck, to put it bluntly. We are 
going into the ninth year with a continuing resolution.
    As you know, I cannot make new starts under that. Even if 
the cyber domain or the space domain require that we do new 
things we have not had to do before to maintain our competitive 
edge. So the most important thing, I believe, is to make 
certain that the Congress act together to relieve us of the 
Budget Control Act cap, the defense caps, and we get 
predictability in our funding.
    Mr. Wilson. And I am really grateful for the leadership of 
Speaker Paul Ryan and Chairman Diane Black. We are trying to 
address that. And additionally, Mr. Secretary, as the former 
co-chair of the India Caucus, I appreciate your visit last week 
to New Delhi. Under the new strategy, how will our defense 
relationship with India change, and keeping that in mind, how 
can we balance our cooperation with India as we have a 
situation where Pakistan has a level of resentment?
    Secretary Mattis. Sir, the question you are bringing up is 
exactly why I was in New Delhi last week where Prime Minister 
Modi and their national security advisor, the minister of 
defense, welcomed me. I would tell you that India is on the 
move. The economy is picking up.
    But most importantly in my portfolio, we now have a 
strategic convergence of two natural partners, the two largest 
democracies in the world. And India has been generous over many 
years with Afghanistan. They have been the victim of terrorism, 
so I don't need to go there and talk about the terrorist threat 
with them.
    We have many areas where we are natural partners with one 
another. And we are deepening and broadening the military-to-
military relationship with them. But it is not an exclusive--it 
is not an exclusive strategy, exclusive of anyone. Any nation 
that wants to be part of this--the counterterror effort and 
this stability effort in South Asia, can sign up.
    Pakistan need not think this is exclusive of them. It is 
open to any nation that wants to move against terrorism and 
remove this threat to all civilized nations.
    Mr. Wilson. Thank you very much.
    The Chairman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    And Mr. Secretary and General Dunford, thank you for being 
here. Thank you for your service to our country.
    In President Trump's August 21st speech, the President 
stated that he had lifted restrictions placed on our 
warfighters and the expanded targeting authorities. And I know 
you understand that this is obviously--it is critical that 
Congress be kept apprised of the operational outcome as a 
result of these changes so that we can continue to conduct the 
appropriate level of oversight.
    Can you more clearly define for me what are these 
restrictions that have been lifted? And which authorities have 
been extended? And which results have you seen--what results 
have you seen since these changes were made thus far?
    Secretary Mattis. Sir, the NATO OPLAN had certain--had 
certain objectives in mind. It is organized to bring the Afghan 
army into a stronger position. And in some cases we were not 
giving that army the high ground. In other words, having fought 
in the mountains, it is a very uncomfortable feeling when the 
enemy is above you.
    We did not give the young Afghan boys the sense that they 
had the high ground when they were fighting against this enemy, 
that the NATO air support could have given them. Today, I can 
bring that air support to them. We have got to reorganize our 
advisors because those units with NATO and American advisors 
win, and those without them often do not win. So we are going 
to spread the number of units with advisors. We are going to 
bring that air support to bear.
    And specifically, we are no longer bound by the need for 
proximity to our forces. In other words, wherever we find the 
enemy, we can put the pressure from the air support on them. It 
used to be we had to basically be in contact with that enemy. 
At the same time, we do not want this to be misinterpreted into 
a laissez-faire use of fire support when we are fighting wars 
where the enemy intentionally hides among innocents.
    It is still very much aligned with our effort to do 
everything humanly possible to prevent the death or injury of 
innocent people, women and children, villages, this sort of 
thing.
    Mr. Langevin. Are there other restrictions that we should 
know about that you can identify now?
    Secretary Mattis. The other restrictions usually are 
basically in now being able to bring this fire support to bear 
where we could not before, whether it be proximity or we were 
not with those units. Remember, we were only advising under the 
old--under what I inherited, down to the corps level. We are 
now going down to the brigade level and the next level down, 
the kandak, or what you and I call the battalion level. These 
are the forces that actually move against the enemy.
    You will notice the commando forces and special forces who 
consistently win against the Taliban also have--they also have 
NATO and U.S. advisors with them. Our failure analysis made 
very clear why we had the problem with the other forces. We are 
going to solve that.
    Mr. Langevin. Thank you. Secretary Mattis, while the Afghan 
government is certainly determined to maintain security and 
stability, it is obvious that they are also contending with the 
clash of cultures in the region necessitating a coalition of 
our partner nations to address regional security challenges.
    So I understand that you were just in India or you spoke 
about that with Congressman Wilson, where they pledged $3 
billion for development projects to train Afghan officers as 
well as additional naval cooperation.
    So how will this expanded engagement enhance security in 
the region?
    How do you intend to leverage relationships like this to 
develop a more effective coalition strategy that will inject a 
level of legitimacy and confidence between the Afghan 
government, its people, and its regional partners?
    And, similarly, something that caught my attention in the 
President's speech with respect to Pakistan, how do you intend 
to persuade Pakistan to take more action to eliminate 
cooperation, support, and refuge for the Taliban in the Haqqani 
network?
    Secretary Mattis. Sir, I am--let me take the second 
question first. On Pakistan, what you are going to see is 39 
nations all in the NATO campaign working together to lay out 
what it is we need Pakistan to do as well as in the U.S. 
Government--Secretary of Treasury, Secretary of State, the 
intelligence community, Defense Department, and we lay out what 
it is we need Pakistan to do and then we are going to use a 
whole-of-government international effort to align the, 
basically, the benefits and the penalties if those things are 
not done.
    Pakistan, again, has lost more troops in this fight against 
terrorists than nearly any country out there. And yet at the 
same time, as you know, there has been some parsing out where 
some terrorists have been allowed safe havens. We are out to 
change that behavior and do it very firmly.
    Based on a visit 3 days ago by the chief of army staff of 
Pakistan to Kabul, we actually have, for the first time, a 
sense of some optimism out of the Afghan government. So I am 
from--I am in a show-me stage right now, but we intend to work 
through international partners diplomatically, economically, 
and work together to make the change that actually impacts in 
best interest.
    As far as gaining confidence there with the Afghan people 
and their military and how do we make this work, I am going to 
ask the chairman to say a few words on this, but the bottom 
line is, sir, that if you look at what we call a loya jirga, 
which is the largest political assemblage under their culture, 
it is overwhelming how much of the population wants the NATO 
alliance to stick with them.
    And so, when you add to that the countries like India which 
are trying to provide more generous--they have been very 
generous, but even more development support, there are ways to 
build the confidence of a people that have been tormented ever 
since the Soviet invasion by violence.
    Chairman, if you have something.
    General Dunford. Congressman, the one thing we always said 
was that the most important thing that we were delivering to 
the Afghan people was some hope for the future, and a 
conditions-based approach gives them that.
    In recent polling, about 80 percent of the people reject 
the Taliban. About 70 percent plus have confidence in the 
Afghan security forces, and roughly those same numbers as 
Secretary Mattis alluded to, roughly those same numbers welcome 
a coalition presence.
    So, I think that the commitment that the international 
community, because this isn't just a strategy about the United 
States, there are 39 other nations, and NATO has the same 
approach, a conditions-based approach. I think that is having a 
profound effect on the psychology of the Afghan people. Which 
again, we always felt was a source of strength in the campaign.
    Mr. Langevin. Thank you both.
    The Chairman. Mr. LoBiondo.
    Mr. LoBiondo. Secretary Mattis, General Dunford, thank you 
for your very solid and extraordinary leadership. I think the 
Nation is very fortunate that you have accepted these 
assignments. A lot of my questions have already been asked and 
answered, but I want to go back just to what a couple of my 
colleagues have said previously about Pakistan.
    So, I know that they are demonstrating, at least 
rhetorically, the right approach and willing--expressing the 
willingness to help, but we have seen this before. And we have 
been disappointed and sometimes they do a little bit and make 
it sound like it is a lot.
    What--in this, I recognize we are also in an open setting, 
what can you tell us about if we find that this is a false 
start again that we can do to pressure them to more cooperate? 
Because I think it is pretty obvious without them we have a 
much more difficult time in Afghanistan.
    Secretary Mattis. Sir, the reason we did a regional 
approach in the beginning was so we didn't try to start with 
Afghanistan, put together a great plan and say, well now we 
have got to add in these kind of variables. We started with 
India to Iran. We looked up into Central Asia and down into 
Pakistan and came at Afghanistan as a geographically 
centralized problem, but informed by the others.
    I think that there is an increasingly level of discontent 
in the world with any country that supports terrorism for any 
reason. I mean, it has taken a while for some countries to come 
onboard or you look at what Secretary Tillerson has put 
together in terms of the Defeat ISIS Coalition, 69 countries 
right now plus the Arab League, European Union, NATO, INTERPOL 
[International Criminal Police Organization].
    When you think of that number of countries it is clear that 
what ISIS has done has created its own antibodies. And by doing 
that, there is more of a concern about the spread of terrorism. 
So as we work this problem with Pakistan, as Pakistan has moved 
actually against the border areas here in the last 6 months, 
losing a lot of troops and pushing against some of the border 
passes to give access into Afghanistan, I think that we are in 
a position now where we can be more compelling. But, this is 
going to be one step at a time. We are going to remain, 
basically, focused on this effort.
    We are not going to back off and it will start with 
assistant secretaries coming out of Washington and the national 
security staff members going into Pakistan soon followed by the 
Secretary of State. I will go in and we have Secretary General 
Stoltenberg's very clear support for this in his advocacy as 
the Secretary General of NATO.
    So we are going to continue to build this up in an 
international way with a whole of U.S. Government argument for 
the Pakistanis to work in their own best interest and ours.
    Mr. LoBiondo. Thank you, Secretary Mattis. I yield back.
    The Chairman. Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman, and thank you both 
for being here.
    At the outset I just want to, sort of, endorse Mr. Jones's 
comments that, I too, feel that we as a full body of Congress 
should have the opportunity to debate an authorization for use 
of military force. It has been too many years, I feel. I have 
been here 10 years and we have been having these hearings over 
and over and over again, and we have many new Members of 
Congress as well.
    So, with the new administration a new effort, not 
necessarily is different, but nevertheless, a new effort I 
feel, we need the chance to debate this and recommit or not to 
what you are doing.
    But I also wanted to just address, again, the regional 
approach that you are taking--and we have had some conversation 
about Pakistan but there has also been reporting that Russia is 
engaged in finding ways to support the Taliban; Iran as well. 
And I would just like your thoughts on how that is complicating 
your efforts there.
    Secretary Mattis. Well, any effort to support a violent 
group--a terrorist group like the Taliban, until they renounce 
terrorism, support for them is not in Russia's best interest, 
not in Iran's best interest. Certainly not in Afghanistan 
people's best interest and it is contrary to the NATO campaign 
and the international agreements under the U.N. [United 
Nations] that put us there in the first place, that authorized 
us to be there.
    So, I think that this is very difficult to discern why they 
would do something that is not in their best interest. I am not 
ready to say precisely what it is. I want to see more evidence 
about how deep the support is.
    It is just hard to believe--Iran has had their diplomats 
killed by Taliban. Russia certainly has had enough problems 
coming out of terrorism in South-Central Asia, so this doesn't 
make sense, but then the world doesn't always make sense. We 
will figure it out and we will illuminate it where it is 
necessary in order to try to get a change in behavior.
    Ms. Tsongas. And yet, you have seen some evidence of it 
without really wanting to go--without fully having a sense of 
to what level it goes.
    Secretary Mattis. We have seen some, ma'am. It is--I need 
more definition on what is coming out of Russia--I can't figure 
it out. It doesn't make sense. But we are looking at it very 
carefully.
    Out of Iran it has always been a low level of intermittent 
support for Taliban; mostly financial, some weapons. It is Iran 
doing what it usually does, in terms of trying to create chaos.
    Ms. Tsongas. General Dunford, would you like to comment?
    General Dunford. Congresswoman, what we have seen, just to 
be clear, because you have talked about support. I think we 
have clear indications of communications. I think with regard 
to the Iranians there is no question that there is a degree of 
support, as well as communications. With the Russians, I don't 
think we have specificity on support to the Taliban.
    Ms. Tsongas. Thank you. That was my only question. I yield 
back.
    The Chairman. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Secretary Mattis, it is good to see you again and thank you 
for being here.
    I too, like the other members, want to thank you for your 
work since you have been Secretary. You have been very diligent 
in ensuring that this committee is informed working directly 
with the members of the committee, but even beyond that you 
have with the classified briefings that you have held for the 
whole House, made certain that other Members hear your message.
    That helps us because what we learn in this committee, in 
these hearings, we take out to other Members but you are taking 
your message directly which has included repealing 
sequestration, the effects of CRs, and I want to appreciate 
that you have done that because it is making a big difference.
    So, I want to thank you for being here today also. And I 
want to ask you a question concerning the drug trade in 
Afghanistan. According to a 2016 survey concerning opium 
cultivation and production in Afghanistan, the cultivation in 
Afghanistan in 2016 increased by 10 percent. All regions, 
except the southern region, experienced an increase in opium 
poppy cultivation last year.
    Additionally, aside from a drop between 2014 and 2015, the 
data shows a steady growth in opium poppy cultivation between 
1994 and 2016.
    If you look at the historical levels from 2001 to where we 
are today it has roughly doubled. So, we have seen that it was 
less than half before 2001. I know that that is unacceptable. I 
am certain you believe it is unacceptable, and it has a direct 
impact on counterterrorism, as you know, because it includes 
funding. Counternarcotics efforts lessen the funds that are 
available to terrorists. It also breeds corruption in both the 
Afghan government and in the Afghan military.
    And we know how to address this. We address the crops, we 
address distribution, we address labs, we address funding--
basically the infrastructure for the narcotic trade.
    So, in looking at your new additional strategy in South 
Asia, how do you see this strategy including an effort to 
affect the opiate narcotic trade?
    Secretary Mattis. It is a great question. Both the counter-
finance aspects of the strategy and the counter-corruption are 
linked directly to the counternarcotics campaign. We will--we 
watched as we drew down too fast, too early. We watched the 
Taliban surge. As the Taliban surged, we watched the poppy 
surge right along with it. There is no surprise here--the 
intelligence community had warned us about this, so it is 
exactly what we were told would happen.
    As we look at this we are going to go after the 
counternarcotics refineries, the transportation nodes, the 
bazaars as they call them, where they are bartered. And the 
reason is that is where the Taliban actually accrues their 
taxation cash off of the trade. It is not from the little guy 
down there who is farming this hearty crop of poppies.
    And so, we are going to look at where does it help the 
Taliban and fight it from that direction rather than going 
pretty much in a big way just after the farmers themselves. So, 
there is a way to cut this thing and reduce it by targeting the 
right locations and the right nodes in the drug trade that will 
also undercut the Taliban's fundraising.
    Mr. Turner. General, we have dealt with this issue a lot 
and there have been times where we have had some success. In 
looking at this issue the committee is very aware of the fact 
that there are impediments as to how we are structured. Are 
there things interagency, interdepartment, funding issues that 
we need to address to ensure that the Secretary's new strategy 
is implemented? What do you see as your impediments?
    General Dunford. Are you talking now more broadly, 
Congressman, or just with regard to the drug problem?
    Mr. Turner. You get the assignment, but you don't have all 
the authorities. Where are areas where there is difficulty for 
you in trying to achieve, through the DOD structure, a 
reduction in narcotic production? And how can we help you?
    General Dunford. I think having the right numbers of drug 
enforcement agents to advise the Afghan forces--they have got a 
major crimes task force there. And so, law enforcement 
officials that can help advise and grow the capacity of the 
Afghans to both arrest, protect evidence, and prosecute has 
been something that has showed good value in the past and also 
making sure the justice system continues to mature as well.
    Mr. Turner. Sorry, my mic was off. Secretary Mattis, 
anything you would like to add to that on the tools that you 
would need? I do know that you have difficulty--interagency, 
interdepartment, and structurally in trying to achieve these 
goals.
    Secretary Mattis. You know, sir, because it touches the 
Taliban and the counter-finance effort, is something that we 
are very much invested in and integrated. I don't sense that I 
have any missing authorities here, but if I find them, I will 
come up and see you and tell you what I need. I have made a 
note of it, I need to look at it. So far, I have not heard 
that, but I haven't asked a specific question. I need to do so 
before I answer you.
    Mr. Turner. Thank you.
    The Chairman. Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    Secretary Mattis, you said a couple of times during this 
hearing that war is a matter of will and that the Taliban have 
to understand that there is an implacable will on our side to 
continue this fight and to see it through until we achieve our 
goals. Convince me that our will is more implacable than theirs 
going forward.
    Secretary Mattis. Well, of course, I am not alone in this 
fight, sir. I have just come out and seen our troops in the 
field, including the troops of other countries. I have no doubt 
we have the troops with the willingness to endure danger and 
discomfort in defense of this country, and this town, and New 
York City that were attacked by terrorists operating out of 
this very area that we are fighting in.
    But I think you bring up a good point and it goes back to 
something mentioned earlier about AUMF. I think there has got 
to be--the U.S. Congress has got to embrace this as our fight. 
We are all in this and we--I am eager to hear any criticisms of 
strategy, changes in the operation, open the door, have you go 
in, look at it. To me, if what you go in and see or what our 
inspector finds there isn't something you admire, then I need 
to change it.
    But one thing, I have dealt with this kind of enemy since 
1979. I do not patronize them. When they say girls don't go to 
school, you are not going to talk them out of it. They didn't 
rationally arrive at that point and we are going to have to 
confront this the way free--generations of Americans have 
confronted other threats. Whether it be militarism, fascism, or 
communism, we are going have to confront it for our time.
    Mr. O'Rourke. Let me ask you a follow-up question that--you 
talked about some of our goals. The primary one, I think, being 
that Afghanistan never again be used to plan or carry out 
attacks against the United States of America. We want those 
stakeholders, like the Taliban, to work within the national 
government and the political process.
    You also said that the Taliban have to understand they 
cannot kill their way to power. I think you would also agree, 
we probably cannot kill our way towards these goals and 
conditions. So, therefore, what is going to have to happen for 
the Taliban to accept our conditions, short of us killing all 
of them?
    Secretary Mattis. Well, I think Congressman, it has got to 
be they recognize they are not going to gain power at the point 
of a gun and that the Afghan security forces are capable of 
defeating them.
    General Dunford. Congressman, if I could just add in there, 
and we talk about will, I think the Secretary just touched on 
something that is important. It is not the Taliban will just 
against U.S. and coalition will. It is the Taliban will against 
the Afghans and the Afghan forces in particular. In the last 
year, the Afghan forces had 16,000 soldiers killed and they 
stayed in the fight. They have proved incredibly resilient.
    Sure, they have had battlefield shortfalls and we know what 
they are and our failure analysis indentified those, and the 
plan that we have proposed is designed specifically to address 
where there are tactical gaps in their capability, down at the 
small unit level, and particularly, the ability to deliver 
fires.
    But I think at the end of the day, this is a clash of 
wills. It is a clash of wills between the Afghan people and 
some small portion of the Afghan people that actually want to 
resort to violence to advance their political objectives. And I 
think with support to the Afghan forces and the Afghan people, 
I am confident that their will will actually endure longer than 
Taliban will.
    Mr. O'Rourke. But with all due respect, General, it is not 
just the Afghan government and a small minority; it is the 
Afghan government, a trillion dollars in U.S. taxpayer support, 
tens of thousands of U.S. service members, NATO allies, the 
support monetarily and militarily from those countries as well, 
and we are in our 16th year with no end in sight.
    And I am having a very hard time understanding and being 
able to explain to my constituents what the game-changer is 
that I am hearing today that will make this different going 
forward. And I mean no disrespect----
    General Dunford. No, no.
    Mr. O'Rourke. But I am just not hearing it. I think this 
war has suffered from a lack of oversight and a lack of 
questions asked, and so I am asking you this question.
    General Dunford. Sure, I think it is a fair question. I 
think it is a fair question to debate why this is different and 
why we should stay after 16 years.
    I will certainly tell you from a military perspective why I 
recommended we stay was, we looked carefully at the 20 groups 
that are international terrorist groups, 20 of the 90 we 
recognize around the world, and the consequences of not keeping 
pressure on them. So that was number one.
    In terms of what is different, people talk about 16 years--
for 14 years of those 16 years, we were in the lead and we were 
in the fight. Over the past 2 years, it has been the Afghan 
forces that were in the lead and in the fight. They didn't have 
adequate force capabilities to be able to deal with the 
Taliban.
    This doesn't address 16 years of us being in the fight; 
this addresses 2 years of the Taliban fighting legitimate 
Afghan security forces. And this plan is designed to fill the 
capability gaps that have been identified as a result of the 2 
years of casualties and setbacks that they have suffered.
    I think that is really important, is that this is designed 
to be fiscally, militarily, and politically sustainable over 
time. It will require a U.S. presence increase in the short 
term, but in the long term this is about leveraging the 300,000 
Afghan forces that we have grown over the course of 16 years, 
but just inadequately supported here for over the last 2.
    Mr. O'Rourke. Thank you.
    The Chairman. Mr. Lamborn.
    Mr. Lamborn. Mr. Chairman, and thank you both for what you 
do to protect our country and our allies.
    I believe the President is to be commended when he in his 
recent speech talked about Pakistan and how Pakistan needs to 
be more consistent in its promoting stability in the region. 
And, Secretary Mattis, you addressed that very strongly in your 
comments earlier.
    And I would just like to follow up on that a little bit. 
What can we do if Pakistan does not follow through and be a 
better promoter of promoting stability?
    Secretary Mattis. Sir, we have an enormously powerful 
number of options there. Right now I would like to think we 
will be successful, but you have--you asked a very good 
question, because we don't want a transient or temporary 
change, but and then, you know, they--things go back the bad 
way.
    But I think that right now with the growing consensus 
against terrorism, they will find themselves diplomatically 
isolated. They will find themselves economically in increasing 
trouble, as countries that are damaged by this terrorism coming 
out of there say enough is enough and take steps.
    There is an awful lot of advantage to Pakistan of coming 
online with the international community, and I think that we 
have to stay focused there, but the penalties are just as 
significant as the advantages if they choose to go a different 
direction.
    But for right now, we need to try one more time to make 
this strategy work with them, by, with, and through the 
Pakistanis. And if our best efforts fail, President Trump is 
prepared to take whatever steps are necessary.
    Mr. Lamborn. And, for either one of you, how will or how 
should our defense relationship with India change?
    Secretary Mattis. Sir, I was in India last week and was 
very well received by Prime Minister Modi, by his minister of 
defence, his national security advisor. We have a strategic 
convergence right now between the two--the world's two biggest 
democracies, and this is probably a once in a generation 
opportunity to with shared interests to deepen and to broaden 
our defense relationship, but also our economic relationship, I 
think our political relationship can be tightened together.
    They are a force for stability in South Asia. They are a 
force for stability in the Indo-Pacific region. They are a 
nation coming into their own, economically, as a great nation, 
as they have steady growth rates going on right now.
    And I think there is an opportunity here that we have not 
experienced in decades to tie us together in terms of a 
broadened level of cooperation and a natural alignment with 
each other's interest.
    Mr. Lamborn. As a follow-on to that, do you have anything 
that you are ready today to announce or designate specifically, 
that we will be doing that we haven't done in that past with 
India?
    Secretary Mattis. There are a number of things in motion 
right now, sir, and decisions, I think, will be coming very 
soon. We are both working to turn these big words into 
pragmatic realities and because I see both sides working 
together on it I am optimistic. It is not like we have to go 
over there and convince them that terrorism is a threat.
    They have felt what has happened there. We have not had to 
convince them that we don't have nefarious designs on the Indo-
Pacific area. We are two democracies that we can work together 
on this. There are some things we are doing in terms of their 
support in Afghanistan.
    Development funding, they have been very generous for many 
years and they have achieved a degree of affection from the 
Afghan people as a result. They intend to continue this effort 
and broaden it. Furthermore, they are providing training for 
Afghan military officers and NCOs [noncommissioned officers] at 
their schools.
    They are willing to do rehabilitation of Soviet-era 
equipment until we are able to replace it with American. That 
will take years in order to do it properly and all. So, they 
need to maintain what they have now. Helicopters, for example.
    Furthermore, they have been providing and will continue to 
provide training for Afghani army doctors and medics in the 
field, so that the army is able to take casualties and better 
sustain themselves; that sort of thing.
    So that it is really a very holistic approach that India's 
taking. You will notice I left off boots on the ground because 
of the complexity that that would bring to Pakistan. We are 
trying to make this an inclusive strategy and we don't want 
them to get a sense that they are vulnerable to any Indian Army 
people from their western flank. That is not necessary.
    Mr. Lamborn. Thank you.
    The Chairman. Mr. Veasey.
    Mr. Veasey. Thank you, Mr. Chairman.
    Secretary Mattis, I wanted to specifically ask you about 
the State Department and the USAID [U.S. Agency for 
International Development] programs in Afghanistan now.
    And how do funding cuts to the department as proposed by 
the administration affect the overall mission there? I know 
that you in the past that you have been very outspoken about 
the importance of diplomacy and other programs in support of 
the mission.
    Secretary Mattis. Congressman, right now what we are trying 
to do is get a lot more development aid from the international 
community. This is separate and distinct from what we are doing 
to lower the demand on the American taxpayer where we are 
paying an awful lot of the military piece of this.
    We are also trying to raise money, by the way, from our 
allies to carry more of the commitment on the military side. 
But I am not--I am not certain what the cuts are as far as 
AID's budget for Afghanistan. I can get back to you. I will go 
to State Department, to USAID and determine that, and come back 
to you with an informed answer, sir.
    Mr. Veasey. Okay. Well, thank you very much.
    I also wanted to ask you about Special Inspector General 
John Sopko. He said in March that with a new administration and 
a new Congress that it is a good idea, an opportune time to 
reevaluate our efforts in Afghanistan and find out what is 
working and what is not.
    Now, one smart first step would be to do what SIGAR 
[Special Inspector General for Afghanistan Reconstruction] 
recommended years ago, which is for each of the three major 
agencies in the reconstruction effort--State, USAID, and DOD--
``to rack and stack their top- and worse-performing projects so 
they know where to invest further and where to cut those 
losses.'' That was his quote.
    And I didn't know if you agreed with that proposal? And if 
so, has it been implemented yet in any way in crafting a South 
Asia strategy?
    Secretary Mattis. I do agree with what he said about what 
is working and what is not. We have done a failure analysis 
that has tracked--that has delved into this issue. Right now, 
before I have the chairman talk with his background as a NATO 
commander there in Afghanistan, I will just tell you that when 
I heard that the budget was being reduced for AID, Secretary 
Tillerson and I sat down together the next day.
    We spoke about how we would align DOD and DOS [Department 
of State] at the high level to determine what were priorities, 
without any violation of our funding lines; make certain we 
were talking to each other; that we aligned our foreign policy 
effort, DOD reinforcing State Department, with a very strong 
partnership to make sure we are getting--we probably should 
have been doing this anyway--but make certain what we are doing 
was collaborative with one another in any part of the world we 
were both operating in.
    But let me pass this over to the chairman. He has got some 
information on Afghanistan.
    General Dunford. Congressman, I think to your broader 
question which is did the SIGAR's report inform our strategy 
moving forward. The SIGAR actually partnered with us. When 
Secretary Mattis directed us to do a failure analysis, to go 
back and look at what has worked and what hasn't worked in 
Afghanistan, one of the key partners--we brought in a number of 
outside agencies--one of the key partners we brought in, and I 
had Mr. Sopko in my office, and then he had representatives on 
our team.
    So when we did the failure analysis, it was very much 
involved--very much informed by the work that the SIGAR had 
done over the past few years, not only with regard to projects, 
as you have talked about, but they have done some good work on 
resource transparency and accountability. They did some good 
work on what worked and what didn't work in our advisory 
effort. They did some good work on what worked and didn't work 
in terms of collaboration between State Department and the 
Department of Defense.
    And so I think that I feel confident in saying that SIGAR's 
work as well as some of the other literature that is out there 
that talks about what has worked and what hasn't worked in 
Afghanistan is very much a part of the recommendations that we 
made to Secretary Mattis and the President.
    Mr. Veasey. And General, or Chairman also on that one, the 
July SIGAR report indicates a 21 percent increase in security 
incidents from last quarter of March to May 2017, and a 2 
percent increase from the same period last year. What does this 
uptick in the security incidents tell us about the security 
situation overall? And how are we shaping our strategy going 
forward in light of these particular figures?
    If you can answer that quickly. Time has----
    General Dunford. Sure--sure, Congressman. I would just tell 
you that I don't think any of us are satisfied with where 
security in Afghanistan has been in 2016 and 2017, although so 
far 2017 is slightly better than 2016. And the reason why we 
believe those incidents have occurred is the Afghan forces 
haven't had the wherewithal to accomplish their mission.
    So we have focused on those areas where they have fallen 
short of the mark, specifically the ability to deliver aviation 
support and provide advisors at the right level in their 
formations.
    Mr. Veasey. Thank you. Thank you, Mr. Chairman.
    The Chairman. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Secretary Mattis and Chairman Dunford, thanks again for 
joining us today. Thanks so much for your service.
    Secretary Mattis, I wanted to refer to the U.S. defense 
strategy on the war in Afghanistan. The President noted in his 
August 21st address that India continues to be a very important 
strategic and economic partner. And I certainly agree with 
that. I had the opportunity days after to visit with the 
foreign secretary in India, the defense secretary, chief of 
naval operations.
    I know that you just returned from the region there, 
speaking with President Modi and others, and that your effort 
and your direction there in dealing with India is going to be 
steady engagement, which I think is spot-on. And I am all in 
favor of making sure we do joint naval exercises, that we 
continue expanded defense trade.
    But in relation to what is happening in the region, I am 
more concerned about a stable Afghanistan and securing the 
hard-fought gains that we have had there. And I know that you 
noted that in reference to terrorist safe havens there in the 
region, that as global leaders India and the United States 
resolve to work together to eradicate this scourge.
    And I am fully in agreement with that, but I want to get 
your perspective. What do you think that India can do 
specifically to help root out or to help reduce terrorist safe 
havens in that region? You talked about their engagement in 
putting dollars into Afghanistan, but what can they do in a 
broader sense in helping with the terrorist safe havens that 
are happening throughout the region?
    Secretary Mattis. Congressman, India has an outsized role 
to play because of its size, I think because it is as raucous a 
democracy as we are, frankly. It gives people hope that their 
voices can be heard, that economic opportunity can be passed 
broadly in a society, not to a corrupt few. And I think their 
example alone is important. It is why we are looking at this 
strategic convergence as an opportunity for steady engagement, 
so we have to do pragmatic things together.
    I think in this regard, if there is any way for Pakistan 
and India to open their border to trade at great economic 
advantage to both of those countries, it would be a big help 
across the region. Because stability can follow economics as 
much as stability enables economics. And so I would hope that 
we will eventually see that happen. I believe India wants that 
to happen, but it is very hard to do that if your concern is 
that you open the border to one thing and you get something 
else.
    So there has got to be some trust-building between those 
two nations. But I think that would probably be--in South Asia, 
one of the key enablers to getting trade going back and forth 
across all those borders--Afghanistan, Pakistan, and India.
    Mr. Wittman. Very good. Thank you.
    Chairman Dunford, I wanted to follow up along the same 
lines of terrorist safe havens, and you talked about the new 
Afghanistan strategy calls for expanding authority for U.S. 
forces to target terrorists and the criminal networks that 
operate in Afghanistan. And the President said that he agreed 
and said that we ought to have a policy to make sure that there 
is nowhere to hide and no place that is beyond the reach of 
American might and American arms.
    I wanted to get you to elaborate a little more. I know you 
talked some about this--about what you see the expanded 
authority specifically needing to be, and what it means in a 
combat sense. And give us maybe some examples there about what 
is not happening now, but what could happen under expanded 
authority in how the train, advise, and assist role happens now 
versus what it would be in the future.
    And have you seen any positive changes that are resulting 
from this transition through this change? And will there be any 
more changes that you think will be implemented, or will be 
necessary to be implemented?
    General Dunford. Congressman, let me start with the TAA 
[train, advise, and assist] changes, because I think this is 
one of the more significant ones. We were providing advisors 
only with Afghan conventional forces only at the corps level. 
That is the general officer level, largest formation. Those are 
not the organizations that are actually in the fight everyday.
    So two levels down below is where the decisive action is 
taking place, and we didn't have any advisors there. And so 
even though we had some aviation capabilities, some 
intelligence, surveillance, reconnaissance capability, it 
wasn't being delivered to those Afghan units that were actually 
most relevant in the fight. So--because we didn't have the 
authority to put advisors down to that level.
    So one of the more significant changes in authorities is 
the level at which we advise and assist. And that has and will 
make it--make us more effective.
    Also, just broadly speaking, without going into rules of 
engagement in an unclassified venue, there are no individuals, 
there are no groups that threaten the Afghan government, 
threaten U.S. forces, threaten our mission, or threaten the 
coalition that General Nicholson does not have the authority to 
prosecute.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chair.
    This question is for Secretary Mattis. In your opinion is 
Iran compliant with the JCPOA [Joint Comprehensive Plan of 
Action]?
    Secretary Mattis. I believe that they fundamentally are. 
There have been certainly some areas where they were not 
temporarily in that regard. But overall, our intelligence 
community believes that they have been compliant. And the IAEA 
[International Atomic Energy Agency] also says so.
    Mr. Gallego. Just a follow-up question to answer, General 
Mattis. Would you--will you be recommending to President Trump 
that we continue working--are working through the JCPOA to 
contain Iran's nuclear capability?
    Secretary Mattis. We are working that right now. There 
are--if you look--we have two different issues. One is the 
JCPOA and one is what Congress has passed, and those two are 
distinct but integral with each other. As you look at what the 
Congress has laid out at a somewhat different definition of 
what is in our best interest, and therein lies, I think, the 
need for us to look at these distinct but integral issues the 
way the President has directed.
    Mr. Gallego. Thank you, Secretary Mattis. If there is going 
to be any change in the status of our participation in JCPOA 
especially when--if it involves the interpretation of what we, 
in Congress, pass in terms of sanctions against Iran outside 
the JCPOA, will you come back and inform and talk to us? 
Because I believe many of us voted for Iran sanctions outside 
of the JCPOA with the understanding that they were not going to 
be linked.
    Secretary Mattis. Well, I think that this would probably be 
most appropriate by the Secretary of State, and I would follow 
him up here. I think that our diplomacy and the President and 
the Secretary of State, I think have the lead on that. But once 
a decision is made and I will be in on the decision, I will 
give input of course. I will be--always willing to come up and 
talk in hearing or in private.
    Mr. Gallego. Thank you, I yield back.
    The Chairman. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    Mr. Secretary, General Dunford, Mr. Chairman. When we look 
back on the history of the Vietnam War in, I think in August of 
1969, President Nixon orders a Vietnamization program in sort 
of a phased withdraw as the army of South Vietnam gains 
capability.
    And then they couldn't--he couldn't, in 1972, bring the 
North Vietnamese to the negotiating table. So he did, I think 
it was Operation Linebacker II, which was a massive bombing 
campaign, late 1972 of North Vietnam. He brought them to the 
table, negotiated peace agreement that extricated the United 
States from the war in Vietnam.
    If I look at Afghanistan today, I think that there actually 
is a better end state because I think that the Taliban come 
from the Pashtun ethnic group. And I think that there are areas 
in Afghanistan where the--particularly in rural Pashtun areas 
where they prefer the Taliban to the government of Kabul.
    But like the North Vietnamese, the Taliban don't feel that 
they have--they feel like they are making gains. And so there 
is no need to come to the negotiating table. And so I 
understand this new strategy is designed to increase pressure 
to bring them to the negotiating table. At least that would be 
a by-product of it.
    So--but I don't--so what I see is the change of the rules 
of engagement, when you talk about air support, which is vital. 
But--and we are plussing up with 3,000 troops. Is that going to 
bring the Taliban to the negotiating table?
    Secretary Mattis. Sir, in the past we have not had 300--
over 300,000 troops who are for all of their challenges have 
stood in the field and kept the Taliban from doing what they 
intended to do, even today, which is take the provincial and 
district centers.
    So we now have the advantage of that experience--more 
experienced force. But we have got to get the advisors down to 
a level where they bring NATO air support, NATO intel support, 
and NATO artillery--and broadened artillery support to them. So 
you know, time will tell, Congressman.
    But I think too, again, this strategy is four R's, 
regionalize it first. Make certain we are dealing with the safe 
havens and the broader issues, get more support. It is to 
realign our forces along these lines so they get down to the 
tactical level. It is to reinforce them with enough that they 
can get down to that level and make a difference. And then it 
is reconciliation.
    But there is also an S. It is 4Rs plus S. Sustain this 
effort. Because if we are willing to sustain the effort--I 
still remember being up here on Capitol Hill, sitting behind 
Dr. Perry when he testified that it was never going to end the 
fighting, the killing, on the Dalmatian coast of Bosnia, 
Kosovo.
    The international community stuck with that effort. And how 
many times have we read in the newspaper about the murder of 
innocent people in Kosovo and Bosnia. Do we still have a couple 
hundred troops there as part of the international effort? Yes, 
we do.
    But the international community, if it sticks with this, if 
it sustains this, I am confident can throw the enemy on the 
back foot and give the Afghan people a chance to pull it 
together.
    Mr. Coffman. General Dunford or Secretary Mattis, if I 
understand right, the significant change in the rules of 
engagement in the prior administration, that--I guess, that 
unless, in terms of the Taliban, you said that, I think, 
Secretary Mattis, you referenced contact, being in contact with 
the Taliban. But unless the Taliban showed harmful intent to 
U.S. forces, we didn't engage them. And I think that was 
modified towards the end of the last administration.
    If there were--if a provincial capital were falling, then, 
in fact, they could be engaged. And so, if I understand a 
fundamental change in the rules of engagement, it is that if--
that the--clearly the Taliban are an existential threat to the 
Afghan government that we are there to support. And if in fact, 
Afghan security forces in and of themselves are in contact with 
the Taliban, then we will provide close air support when 
reasonable. Is that a correct interpretation of the current 
rules of engagement?
    Secretary Mattis. Not complete--yes, at one time, sir, we 
could not help the Afghan forces unless they were in extremis. 
And I was not here then, and I don't know why it happened. And 
then eventually that was rescinded, but they still had to be in 
proximity. They basically had to be in contact.
    Today, wherever we find them, the terrorists, anyone who is 
trying to throw the NATO plan off, trying to attack the Afghan 
people, the Afghan government, then we can go after them.
    Mr. Coffman. To remove the Taliban?
    Secretary Mattis. Always with the caveat that we want to 
make every effort to not kill women and children, and innocent 
people. Chairman, if you want to comment on that?
    General Dunford. Congressman, just to, I mean, I think just 
to reinforce the point, there are two things that have changed. 
We in the past were only providing advice, you know, again at 
that senior level and then, Afghan special operations forces. 
So the only aviation support that we could provide was when we 
had actually advisors that could--that actually could control 
that air support.
    So the large number of Afghan conventional forces, the 
preponderance of those 300,000 forces we have spoken about, 
they could not receive close air support because we didn't have 
advisors. That is the big difference.
    And then, the other thing that has changed is that now, 
again, any individual or any group that threatens the Afghan 
government, our mission, coalition forces, or U.S. forces, 
obviously, can be engaged.
    And the conditions aren't specific to, as Secretary Mattis 
has alluded to, a specific engagement at a specific time. So if 
they are at an assembly area, they are in a training camp and 
we know that they are an enemy and they are going to threaten 
the Afghan government, our mission, or our people, General 
Nicholson has the wherewithal, the flexibility to make that 
decision. It is his level, is where the authority is. And that 
is a fundamental difference.
    The Chairman. Mr. Moulton.
    Mr. Moulton. Thank you, Mr. Chairman.
    And gentlemen, thank you so much for your continued service 
to the country. We have a lot of renewed confidence with you in 
your positions. But confidence is really my key question here.
    And it comes back to a question we have heard a few times, 
and we heard from Senator McCain on the other side of the Hill, 
which is, how really will this be different? We have talked 
about some of the details. But as we have discussed on this 
committee before, at the end of the day, there has to be a 
political solution.
    The Afghan army, 300,000, however many--it doesn't mean 
much if Afghan politics fall apart. Afghan politics have fallen 
apart several times. How is the political effort different, 
this time around?
    Secretary Mattis. Congressman, having just returned, I 
noticed sitting across the table from me in my meetings were 
new commanders and new ministers of interior and defense, 
proven people. People that the NATO officers said, we have 
fought with these guys, it is great to have them in place.
    When you go down to the corps level commanders, these are 
all proven young officers who have grown up in this fight. They 
are not holdovers, not kept around from past wars. There is 
also an effort underway right now to remove many of the 
officers who are over the hill and replace them, give the young 
officers an opportunity to come up to levels they have 
demonstrated they can handle this fight.
    That can only reflect a political reality because of the 
nature of that society right now. As you know, it is a society 
that has been shaken apart since the time of the Soviet 
invasion. It is also a group that now recognizes they basically 
have one last shot at this.
    Mr. Moulton. Mr. Secretary, you have detailed, and the 
chairman as well, how bringing our advisors down to a lower 
level will help on the military front. It sounds like the same 
thing is needed on the political front. How confident--and I 
see a lot of nodding heads. How confident are you that our 
State Department can do that?
    Secretary Mattis. Congressman, it is not only our State 
Department. The NATO Special Civilian Representative--SCR there 
and his deputy and the other diplomats in the town of our 
framework--NATO Framework Nations, but also for example India, 
they are all working along these lines.
    Mr. Moulton. I understand that, Mr. Secretary. But how 
confident are you that our State Department can provide that 
support?
    Secretary Mattis. I am confident we get varsity people out 
there. Ambassador Bass is coming out of Turkey, this----
    Mr. Moulton. A lot of positions are unfilled right now. We 
just eliminated the Special Representative for Afghanistan and 
Pakistan. Is that helping, Mr. Secretary?
    Secretary Mattis. It--that has no effect on the intent that 
you are trying to highlight here. That is where the Ambassador 
and his staff, that is who does the yeoman--the heavy lifting 
of that kind of job. We also have other military--U.S. military 
officers in their ministries to build bridges across to each--
the various ministry. We try to get the political concentration 
of effort--unity of effort that we need.
    Mr. Moulton. So, Mr. Secretary, are we actually pushing 
advisors farther down in the same way that we were doing on the 
military side of things?
    Secretary Mattis. I am confident we will be. We currently 
are doing that with NATO officers inside the ministry of 
interior, ministry of defense, and the intel agencies. As far 
as the other ones go, I believe--let me ask the chairman. He 
has been there as the commander on the ground in the past. But 
I will tell you that I have seen a new level of collaboration 
between Chief Executive Abdullah and President Ghani than I 
have seen in the past.
    Mr. Moulton. The bar is pretty low, but I appreciate that. 
Mr. Chairman.
    General Dunford. Congressman, I mean, I think it is a fair 
question. And in--as part of the strategy, the State Department 
is tasked with coming up with a more robust approach. I would 
reemphasize one point and then talk about one that is 
aspirational. When we knew moving forward we were going to have 
a new strategy, we needed strong leadership in Kabul. 
Ambassador Bass actually was carefully hand-selected. He is 
coming out of Turkey. He has been there for 3 years. He has got 
an incredible background experience in Afghanistan.
    And many of us--many of us spoke to him and encouraged him 
to accept this service, which is really what he has done. He 
has accepted this service in Kabul for 3 years. So it starts at 
the top, and I think we have the right diplomat that is going 
over to Kabul.
    With regard to your other question, has the advisory effort 
on the political level been pushed down to where it needs to 
be? Not yet. And that has to be done in order for us to be 
successful and I know that is what Secretary Tillerson's intent 
is.
    Mr. Moulton. Thank you, gentlemen. Thank you, Mr. Chairman.
    The Chairman. Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman. And thank you, 
gentlemen.
    We are so glad that you are at the helm at this important 
time in our Nation's history, and in the life of Afghanistan.
    I am so encouraged by a lot of the changes that you are 
instigating. I think it makes so much sense to have the 
strategy be condition-based, not just time-based or number-
based.
    And I have also been encouraged by what you shared earlier 
about making sure that every dollar that goes there is invested 
wisely.
    Our Oversight and Investigation Subcommittee held a hearing 
recently dealing with the allegation that the Afghanistans 
bought and perhaps wasted $28 million dealing with their 
camouflage they chose for their uniforms.
    And I was so encouraged at your memo, Mr. Secretary, 
afterwards, you know, directing that we bring to light the 
wasteful practices and make sure that everything is looked at 
and there is no waste.
    So I am going to ask the question about another area, and 
that deals with just the assessment of the Afghan security 
forces. General Dunford, you had mentioned, and of course we 
talked about 300,000 troops there now and a lot of changes are 
taking place.
    When I was in Afghanistan in 2011, I was struck by what I 
learned there about the difference in perceptions and the 
expectations of our military when we first went over there at 
the level of their education, level of their abilities, and we 
thought we were going to begin training at this point, but the 
reality was we had to go back here because of even the literacy 
rate was such that we had to start teaching them basic literacy 
before we could get them to this point and move forward.
    And you said we are going to expand the air force as far as 
close air support. Could you just give a general assessment of 
where you think they are in their capabilities? Where is their 
literacy rate now? Where are the shortfalls in their 
capabilities? Where are they in building the air force and the 
close air support that we feel like they need?
    General Dunford. Sure, Congresswoman. Let me start at the 
air force. So when you were there in 2011, I think they had a 
couple of small helicopters, MD-530s. They had some residual 
Mi-17s and they had a total of five Mi-3s. On any given day 
they might have been able to get one in the air.
    Today, they've fielded 20 fixed-wing A-29 aircraft. They 
have fielded, I think on the order of about 20 MD-530s, which 
is small attack helicopters, with the plan to increase more. 
And we are in the process of transitioning from Mi-17s to UH-
60s.
    The first four UH-60s were delivered this month. The first 
two attack versions of the UH-60 will be delivered in January. 
And then between now and the next 7 years we will completely 
transition to a UH-60 model helicopter, which combined with the 
fixed-wing aircraft, the A-29 as well as the MD-530.
    And then there is one other aircraft that is a smaller, 
light aircraft that conducts reconnaissance called the C-208.
    So they have got a pretty robust air force that is growing 
right now. The most promising area of the air force has been 
the special mission wing, which supports their special 
operations.
    And I can tell you from personal experience that the 
profiles that those pilots are flying are as sophisticated as 
the profiles that we typically fly on a routine basis. You 
know, and again, that is the result of many, many years of 
training. And this is the cream of the crop, there is no doubt. 
But there is some room for promise in the Afghan air force.
    I think it is important, when you talk about lessons 
learned in 2011, in having an accurate assessment of Afghan 
capability, one of the things that the Secretary has directed 
is that our advisors are going to be the most mature, most 
competent, most experienced individuals we have.
    And so what you will see are people that have actually been 
over there before and going back again on a repeated basis. So 
I would expect the advisors that will go in in 2018 will be 
people who have had experience in Afghanistan in the past. And 
so we will be starting from a known point in terms of their 
appreciation of culture, strengths and weaknesses, and so 
forth, and be better advisors.
    One area that I think is significantly different in 2011 is 
leadership. And you know, in 2011 we were still dealing with 
the residual of a Soviet-informed army, that type of 
leadership.
    This summer alone, as a result of President Ghani's 
decisions, the average age of the corps commanders was reduced 
10 years between last spring and right now. He replaced five of 
the six corps commanders.
    And so we really are now dealing with a group of 
individuals that have been trained, organized, and equipped and 
influenced by U.S. and coalition forces for over a decade.
    The young lieutenants and captains that you met in 2011, 
those are now the kandak commanders and the brigade commanders.
    And so, that is something that takes a long time. We say it 
takes 25 years to grow a division commander. It takes a long 
time. But the investment that we have made, bringing the 
Afghans to our schools and training them over years, now are 
starting to result in leaders being in the right place.
    Mrs. Hartzler. That is very encouraging. Thank you. I yield 
back.
    The Chairman. Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman. Secretary Mattis, 
General Dunford, thank you for being here.
    Secretary Mattis, you talked about the new strategy, the 
R4+S. Is that strategy that you also buy into? Right. Is that 
something you support? The R4+S?
    Secretary Mattis. Absolutely.
    Ms. Hanabusa. So can you tell me--I understood your 
description of what regionalizing is, but can you tell me what 
reconciliation means?
    Secretary Mattis. I can, Representative. What it means is 
that the Taliban decide to stop killing their fellow countrymen 
and women and sit down, as some of the small groups have, and 
start working with the Afghan government. They have got 
grievances, then bring them up through the normal processes 
that countries have to resolve grievances, but no need for 
violence, no need to support transnational terrorists.
    Ms. Hanabusa. So is this sort of linear? In other words, do 
we have to go through each of the Rs to get to the S, which is 
the sustained?
    Secretary Mattis. No--no, it is not. It is a great 
question. We are going to fight and talk at the same time. 
Already some groups have broken with the Taliban.
    Furthermore, because the Taliban has lost some key 
leadership, there is internal fighting going on now, which 
distracts them from working against the Afghan government and 
against our NATO forces, our Afghan forces.
    So this is not going to happen in a sequential, linear way. 
There will be--some of them will peel off early. Some will 
fight to the rugged end. But the bottom line is we will fight 
and talk at the same time.
    Ms. Hanabusa. So is realign talking about the others, not 
just--you are not talking about our troops. When you talk about 
realign, you are talking about realigning, like the other 
terrorist organizations or other groups?
    Secretary Mattis. No, ma'am. We are talking on the 
realignment--realigning our forces to the main effort of 
bringing NATO support to the Afghan forces that have not had 
advisors before, and ensuring that the Afghan forces are made 
more capable to provide for their own defense.
    Ms. Hanabusa. So the reinforce component of R-3, I think 
you said, is that the United States to reinforce by having more 
troops?
    Secretary Mattis. We will bring in more troops to extend 
the advisors to the other units that the chairman was saying 
are not right now getting advisors. But it is also Secretary 
Stoltenberg and myself going to other NATO and partner 
nations--NATO being the nations there in Europe; partners being 
ones like Georgia, Australia--and have them pick up more of the 
advisory duty, align more of their troops to advisor duty as 
well.
    Ms. Hanabusa. So though we may not have more boots on the 
ground, so to speak, we do anticipate having more of our 
advisors or NATO advisors in Afghanistan in the future.
    Secretary Mattis. Yes, ma'am. There will be more boots on 
the ground. I mean, we are reinforcing. It is not to take over 
the fighting. It is not to supplant or substitute for the 
Afghan soldiers. It is to make certain that units that never 
had immediate access to NATO air support, intelligence support, 
this sort of thing, will now have it, making them more 
effective at fighting. But we are not taking over the fighting. 
We are enabling them.
    Ms. Hanabusa. So, in your testimony, Mr. Secretary, you 
spoke a lot about the Taliban and how the--the basically lack 
of a better description, how the Taliban was such--doing 
everything so bad and it was an evil entity. Yet in the 
testimony of the general, he talks about defeating ISIS and Al 
Qaeda in Afghanistan, and to ensure other terrorist groups are 
unable to launch attacks.
    And then he ends with something I think you are talking 
about when you talk about reconciliation. And that Secretary 
Tillerson has recently outlined this entire effort is intended 
to put pressure on the Taliban and have them understand that 
they will not win in the battlefield victory, so they will 
enter an Afghan-led peace process to end the conflict.
    Is that the ultimate goal, that we will do away with ISIS 
and we will do away with Al Qaeda, but the Taliban is viewed 
almost like our future partner or the partner in peace in 
Afghanistan?
    Secretary Mattis. As you know, ma'am, the Taliban embraced 
Al Qaeda, supported them, and refused to break with them even 
after they attacked New York City and Washington, DC. So we go 
after the Taliban as providing the structure, so to speak, that 
other transnational groups have in fact used to conduct 
international attacks. I mean, you know what Al Qaeda has done. 
You know what ISIS has done; Haqqani in the area.
    But the bottom line is we are going to go after Al Qaeda. 
We are going to go after ISIS. And if the Taliban wants to 
break with them and stop killing people and rejoin the 
political process, then we see reconciliation as the way we 
will end this war.
    Ms. Hanabusa. Thank you. And I yield back, Mr. Chairman.
    The Chairman. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. Gentlemen, thanks for 
being here today.
    General Dunford, you mentioned the A-29 mission. I am proud 
to tell you that that is Moody Air Force Base in Valdosta, 
Georgia, in my district. We are happy to have that mission 
there. I hope you will continue to expand it. I know that that 
mission is being utilized for other countries as well as 
Afghanistan, so thank you for your support of that and 
mentioning it.
    You have talked briefly about this with General Coffman and 
Wittman and some others, but on page 3 of your testimony, you 
talk about the decisive point in moving--or the new approach 
that will have our most senior, capable, and operationally 
experienced leaders advising at the decisive point in Afghan 
operations.
    Can you speak to--can you give any specific examples of 
where that has--that has made the difference?
    General Dunford. Absolutely, Congressman. When we went 
through the failure analysis, the one thing that we identified 
was Afghan units that had coalition or U.S. advisors almost 
invariably were successful. So we have had--we call it 
persistent embedded, meaning they live and eat and they fight 
with the Afghan forces in support while they are fighting. And 
that is what the case was with special operations forces. So 
that has worked very well.
    We have not had a commensurate effort with Afghan 
conventional forces. So when we talk about the decisive point, 
we are talking about continuing to make sure that at the lowest 
tactical level, this battalion-like organization of about 1,000 
in the conventional forces, we actually have persistent 
embedded advisors that are--that is advisors that are there 
when they are actually in the fight.
    And it has worked with special operations. It has worked in 
our previous experience before we drew down the force before 
2014, when we had a fairly robust advisory effort with Afghan 
forces. And I was in Afghanistan during that period of time. 
They were successful.
    Again, why were they successful? We facilitated delivery of 
aviation support. That was number one. And we continue to help 
them develop their tactics, techniques, and procedures, and 
ability to plan, and help them mature their logistics.
    All of which takes time. And so they are--they are more 
improved than they were in 2014, but I think they still need 
advisors at that level when they are in the fight. So I think 
we do have a pretty--a pretty good body of evidence that 
indicates this will make a difference.
    Mr. Scott. If I may before I yield the remainder of my 
time, I know that one of the--one of the ISR [intelligence, 
surveillance, and reconnaissance] platforms that we used in 
that area--moving target indicators, the JSTARS [Joint 
Surveillance Target Attack Radar System]. Up to and until a few 
weeks ago, I would say I was proud to support the Air Force in 
the recapitalization of that program. I continue to believe 
that we need to recapitalize that program.
    I have concerns about the Air Force's commitment to that 
mission at this stage. I look forward to working with both of 
you to make sure that we maintain the capabilities that the 
JSTARS platform gives us. And I hope that--I hope that the two 
of you can support the continued recapitalization of that 
program.
    And with that, Mr. Chairman, I would yield the remainder of 
my time.
    Gentlemen, I have a tremendous amount of respect for both 
of you. Thanks for your service.
    The Chairman. Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chair.
    Secretary Mattis and General Dunford, more than 24,000 U.S. 
troops have been lost; more than 20,000 wounded, all with the 
price tag of over $800 billion. I know both of you are all too 
familiar with these numbers.
    After 16 years, you are asking the American people to 
endure more, more loss of life, more money, and without an 
expiration date. And for what?
    Secretary Mattis, I believe in the strength and the 
capability of our military. I believe we have the most powerful 
military in the world today. However, I do not know if we have 
the will to fight this war to the end. Because I don't think 
there will ever be an end to this fight against terror.
    This is not a war that can only be fought with troops. We 
are fighting against not one, but a number of worldwide 
networks. The American people are tired, our troops are tired, 
and our allies are tired. I believe the American people deserve 
to know why additional troops are being sent back to 
Afghanistan.
    Secretary Mattis, you have to understand, I have to be able 
to go back to my district and explain to my constituents why 
they are sending their sons and daughters to Afghanistan once 
again.
    Secretary Mattis, would you say we know who our enemy is? 
Reading over the ``lessons learned report'' by the inspector 
general report for Afghanistan reconstruction, it doesn't seem 
we knew ourselves or the enemy. For example, we were wasting 
precious taxpayer money imposing advanced technology to an 
illiterate and uneducated population without the appropriate 
training, expecting them to be prepared to fight.
    According to--in the same report, the U.S. underappreciated 
key strategic-level threats, including the will and ability of 
the Taliban to continue to fight, sustained popular support for 
the Taliban in Afghanistan, insurgent sanctuary in Pakistan, 
eroding Afghan government legitimacy, and corruption in the 
Afghan National Defense and Security Forces.
    Essentially, we didn't know our enemy. Have you considered 
the strategic-level threats this time around? And if so what 
are they?
    Secretary Mattis. Congressman, I believe the strategic-
level threats are the ones we experienced most directly on 9/
11. Problems in these kinds of areas do not stay in those 
areas. They--in a globalized world they come out.
    So, the question I always ask myself before I walk into the 
President's office, if I am going to recommend that we deploy 
American troops where they can be killed is, does this 
contribution, does this commitment of our forces--contributing 
our forces to this fight contribute sufficiently to the well-
being of the American people? We could lose people as a result. 
It has got to pass that standard.
    I think we do know very well who this enemy is. He is an 
enemy that doesn't wear a uniform. He hides behind women and 
children. I recognize the difficulty of taking the country 
further into this war.
    I first landed in Afghanistan in November 16 years ago, so 
I recognize the challenges you bring up about keeping the 
American people motivated and understanding of what this fight 
is all about. I believe it is necessary to defend what we 
believe in and to protect the freedoms we have so the next 
generation can enjoy them.
    I don't believe we can ignore this. I think if we leave 
this region, we leave it at our peril, and I think we have a 
lot of people--even with all the confusion about our strategy 
over the last several years when we kept talking about, we are 
leaving, we are leaving, 39 nations out of 50 still stuck with 
us, I think hoping against hope we would come up with what they 
are now encouraged by, which is this strategy.
    So we are not alone in this would be one of the first 
messages I would bring to your constituents, Congressman. With 
all respect to your constituents, they need to know we are not 
alone in this fight.
    Is it tough? Was the society of the Afghan people 
completely shaken apart, torn apart by the Soviet invasion? Did 
that open the door for then what happened here in terms of the 
society I think you aptly described? Yes. But we deal with the 
ball where it lies right now, sir. We can't wish it away.
    Mr. Carbajal. Thank you.
    The Chairman. Mr. Gaetz.
    Mr. Gaetz. Thank you, Mr. Chairman.
    Secretary Mattis, I had recent occasion to visit with some 
of my constituents who have been serving in this theater when 
they returned home at Walter Reed, and I promised them that I 
would share with you their complete confidence in the President 
and their complete confidence in your leadership of the 
Department of Defense.
    They were injured in a green-on-blue circumstance in which 
they were attempting to give training, advice, and assistance 
to the Afghan forces. Can you speak to any new strategy that we 
have--any new tactics that we have to ensure that folks who are 
there rendering assistance on how to perform the mission don't 
then put themselves in an unnecessarily vulnerable situation?
    Secretary Mattis. This is probably one of the most 
difficult aspects of this war. We all recognize that treachery 
has been part of warfare since the beginning of time, but this 
aspect is especially difficult for us to understand or to 
embrace, and it certainly undercuts the sense of commitment, if 
this is what is going to happen.
    So, let's get down to what are we doing about it. There is 
a very invasive counterintelligence program in which we vet the 
people that we are going to be training. Numerous people have 
been dismissed from the service--from the Afghan service 
because of it. We also maintain a guardian program where you 
have guards on our people who are giving classes in the event 
the counterintelligence program, like all of them, can't be 
perfect--we assume that.
    We also have a very strong support element there in the 
Afghan government. They recognize that nothing is more 
corrosive to the support of the American and the democratic 
people from Europe and other democracies that are part of our 
39 nations than this sort of treachery.
    So, it has got our attention. The Taliban continue to try 
to infiltrate their way into the Afghan units, and we have been 
relatively successful at stopping them.
    But, chairman, if there is anything I have not answered, 
you go ahead, please.
    General Dunford. Congressman the only thing I would say we 
had a very high incidence of these in 2012 and 2013. In fact, 
at a point where I think it is fair to say it threatened the 
campaign.
    And the measures that Secretary Mattis outlined were 
measures that have now matured over time--the 
counterintelligence effort, the training of our people to 
detect changes in behavior of the people that they are training 
with.
    But the thing I believe is the most significant that I 
would just reemphasize, as Secretary Mattis highlighted, is the 
Afghan leadership owns this problem and they recognize that. 
They know that our ability to continue to provide the kind of 
training and support they need is based on them making sure 
that we--our people are secure. So, while we provide our own--
what the Secretary describes as guardian angels, we also rely 
on the Afghan forces to create an environment within which we 
can get our mission done.
    In my judgment, the Afghan leaders jumped in and the reason 
why we do have some incidents--and one is significant in the 
young folks that you have visited up at Walter Reed are 
suffering the consequences of that, but we have driven the 
level of these types of incidents down to a very low level. And 
we should recognize it for what it is--it is an enemy tactic 
designed to erode our will, and we have got to deal with it as 
such.
    Mr. Gaetz. Thank you. And I absolutely appreciate the 
extent to which we have highlighted this as a priority with the 
Afghan government, because that is where we will likely get the 
intelligence that we need to minimize this risk.
    Another area of feedback we have gotten frequently is that 
the deployment cycles that people are on can create 
circumstances where someone goes and has a great relationship 
with a tribal leader, a partner, but then they are out, a new 
person is in. And that this confidence that you have spoken of 
throughout your testimony today can be eroded by some of those 
cycles.
    Are there--is there any tactical change to that going 
forward in this new strategy?
    Secretary Mattis. We are trying--Congressman, we are trying 
to bring troops back on repeat tours. Now, that is--but that is 
more of a corporate memory than a personal relationship. And we 
recognize this challenge. At the same time, we need to keep our 
troops fresh. It is very wearing, as you know, to be in a 
combat zone where you keep your guard up all the time.
    And somehow we have to sustain this, and we have a military 
that has got a pretty wide portfolio right now in terms of 
threats around the world. So we are trying to maintain a more 
veteran approach going back in. We are trying to do the kind of 
things that mean we are putting people into areas that they 
understand inherently, even if they don't know that specific 
village.
    In some cases, we are able to get that kind of return 
actually to the same area again, but that is going to be very 
challenging as we go forward. So it is more how do we train our 
forces for it and how do we do the counterintelligence piece 
that allows for us to be dealing with people who want to work 
with us.
    Mr. Gaetz. Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your--making yourselves available 
to the House Armed Services Committee. Several weeks ago, 
President Trump outlined in very sketchy format a three-pronged 
strategy to Afghanistan. And I would like to ask you about two 
of those. One is the time-based to condition-based approach, 
and the other is to appoint advisors down to brigade level.
    So starting with the first, and this is a preparatory 
question. Does the condition-based approach envision or 
contemplate--and I am not asking for a time; I am asking for 
does it contemplate a state where we withdraw all U.S. forces?
    Secretary Mattis. No, it does not. It implies bringing 
people, the number of people we have there down based on the 
standing-up of more capability and the maturing of the Afghan 
forces. There could be American advisors there 10 years from 
now, maybe a handful compared to today.
    Mr. Brown. Okay--follow-up. So while the military goal, as 
I understand it, is to provide that time and space for the 
Afghan government, the Afghan army to establish itself so it 
can provide for its own security, what are the nonmilitary 
efforts to address the corruption and poor leadership, the 
eroding security, the economic stagnation, the minimal foreign 
investment, and the soaring unemployment--all of which 
contribute to a climate in which the Taliban and other 
extremist groups can recruit and then conduct their activities?
    Secretary Mattis. Congressman, the corruption is, to our 
way of thinking, a strategic vulnerability that has to be 
addressed. President Ghani has got--has signed with us a 
compact of what we are going to do about it. It has to do with 
control of money. It has to do with who they put into position. 
There is accountability. They just put a three-star general in 
jail, to show you that this is going to the very top. It is not 
like it is only the little guy who is being scooped up.
    There is an accountability there that is going to shift the 
opportunity for this into a penalty box, not an opportunity. We 
are going to change that.
    I think on the eroding security, the offensive actions by 
the enemy have now been pretty much blunted. They are down to 
isolated ambushes and IEDs [improvised explosive devices]. Some 
of the IEDs are large, high-profile IEDs. But they have been 
unable to sustain the kind of offensives they had last year 
where they were able to move in large groups. They get in large 
groups now, they understand our rules have changed and we are 
going to take them out.
    So they have had to fragment and disaggregate more, which 
means they can't take over the district and provincial centers 
that our press was full of stories how they were proclaiming 
what they were going to do this year. They have been unable. 
They have been unfulfilled what they said they were going to 
do.
    It is not that they are not dangerous. I mean, it is not 
that we are not going to have to increase the security there 
for the Afghan people. We will.
    As far as investment goes, you will see India, for example, 
picking up a larger bit of investment. We are going to other 
nations about the development investments to try to get them to 
do more. And so far we have had some success in this. We will 
see it actually go into action probably by sometime late this 
winter, start seeing it.
    But we are addressing each of these efforts that you have 
laid out with benchmarks so that we as much as possible can 
quantify the progress. We may not be able to quantify 
everything about it. Some of it is subjective, but we are 
trying to quantify what we are doing in each case so that we do 
not have an assumption that things are going to turn out well. 
We are going to have to make it turn out well.
    Mr. Brown. If I could just use the rest of my time to make 
this statement. I visited with Ambassador Llorens. And while he 
has got the largest embassy in the world, they are camped out 
in Kabul. You have asked for 4,000-plus more soldiers. They are 
going to go to the brigade level. You are already stretched too 
thin with advisors. You are going to go two levels down. You 
will be stretched that much further.
    He is not going to get the force protection that he needs. 
And while I understand the President's concern about nation-
building or trying to build Western-style institutions, nobody 
can help reestablish civil institutions and a regional economy 
better than the United States. Our military is the best in 
training foreign militaries, and it is our State Department, 
our USAID that does diplomacy and development better than any 
other nation.
    So I would like--I had hoped that we could see more U.S. 
involvement in that nonmilitary effort.
    I yield back, Mr. Chairman.
    The Chairman. Mr. Bacon.
    Mr. Bacon. Thank you, Mr. Chairman.
    I want to thank you both for being here. Thank you for your 
leadership. Our country is blessed to have you.
    General Dunford, you commanded forces in Afghanistan in 
2014. How has your thinking evolved since then, seen from your 
new perspective?
    General Dunford. You know, to be honest with you, 
Congressman, to some extent we are going back to the future 
here a little bit. When we did the evaluation in 2013 and 2014 
about what would be need in a post-2014 environment, we 
identified the advisory effort that would be necessary for the 
Afghans to be successful. We talked about the capability gaps, 
to include the aviation gap we have talked about here today; 
the logistics sustainability that wasn't yet in place; the 
intelligence capabilities they would need.
    And then we made a decision to lift off and provide support 
at the corps level and the institutional level. So, we are now 
having a conversation that is not dissimilar from the 
conversation we had in 2000, 2013, and 2014 which was, to be 
successful, we need to have advisors, the right kind of 
advisors, at the right place, and we had to have sufficient 
aviation capability until the Afghan air force came online.
    So, I am not sure my thinking has changed significantly so 
much, Congressman, as we actually now--and it is rare that we 
do--but we actually now have an opportunity to do something 
today, that--is the right thing.
    Mr. Bacon. Thank you. You may have touched on this, but 
with the votes, walking in and out, let me just clarify a 
point. It is often read that we think the Taliban have nominal 
control of roughly 40 percent of Afghanistan. Is that about an 
accurate number?
    General Dunford. I think what General Nicholson talks 
about, Congressman, is the government clearly in control of 
somewhere between 60 and 70 percent, 10 percent is 
approximately contested. So I think it is a bit less than--than 
what you described. But I think that is probably less important 
than the populated areas----
    Mr. Bacon. Right.
    General Dunford. And focus on that. And I think in that 
regard, the government is probably closer to 70 percent. And 
what the goal is for President Ghani is to get to at least 80 
percent of the key populated areas in 4 years, which I believe 
is attainable.
    Mr. Bacon. That is better than what I was reading, so that 
is good--good to hear. Secretary Mattis, what would be your 
assessment if we pulled out of Afghanistan, as some want us to 
do. What do you think would happen within, say 2 years?
    Secretary Mattis. If we pulled out completely?
    Mr. Bacon. Yes, Sir.
    Secretary Mattis. Well, I think we would benefit the 
Taliban greatly. And the Taliban have shown that they will 
permit transnational terrorists. So ergo, basically what we saw 
on 9/11, I think we could anticipate happening again.
    Mr. Bacon. Absolutely. The Taliban were allied with Al 
Qaeda. Would you say they are still allied with Al Qaeda? I 
know the Taliban had been allied with Al Qaeda, or the--the 
close ties. I think it is fair to say they still have those 
close ties.
    Secretary Mattis. Oh, absolutely. We have encouraged them 
to break those ties. Our argument, when we went in, was with Al 
Qaeda. We encouraged them then to break with Al Qaeda. We 
didn't--they were not a transnational terrorist group, the 
Taliban themselves. But they would refuse to do so. And so, 
they chose to fight.
    Mr. Bacon. One last question. I think our emphasis seems to 
be on counterinsurgency, also training the Afghan forces. What 
would you say is the percentage of investment or effort that is 
being put on nation-building versus the counterinsurgency and 
training aspects?
    Secretary Mattis. Well, sir, if nation-building is writ 
large, certainly having security forces, and intelligence 
forces, and police forces help. They set the conditions for a 
nation to find its footing. They set the conditions for 
families to raise children, to have--to bring in--to go to 
farms, to go to jobs, you know, bring jobs in. So in that 
regard, we are setting the conditions for the Afghans to build 
a nation.
    In that regard, there is what is called the donor nations. 
And those--everything, they have met several times over the 
years. They raised money for Afghanistan and countries like 
Japan and Afghanistan, so many more--United Kingdom, bring the 
money in for targeted efforts, whether it be to build a road or 
in order to get products to market before they spoil, that sort 
of thing. We are setting the conditions----
    Mr. Bacon. Right.
    Secretary Mattis [continuing]. For that sort of thing with 
the military campaign, the security campaign we are putting 
together here.
    Mr. Bacon. Well, thank you very much. And before I yield, I 
just say I share your assessment. If we pulled out, we would be 
back in 2 or 3 years, having to take out the Taliban and Al 
Qaeda and it would be a worse fight. So I applaud the 
President's strategy, your strategy to win this and to keep 
Taliban and Al Qaeda out of power. So thank you.
    Secretary Mattis. Thank you.
    The Chairman. Mr. Panetta.
    Mr. Panetta. Thank you, Mr. Chairman.
    Mr. Secretary, Mr. Chairman, thank you for being here. I 
appreciate that. I appreciate your opportunity--the opportunity 
to address you, and hear from you, and obviously appreciate 
your candor on these issues.
    General Dunford, you mentioned counterterrorism in the 
region, in what you are doing. I was wondering, how much of 
this is being responded to with special operations forces? 
Obviously right now, we have about--from what I have read, 
about 8,000 in the world. And what I am hearing over and over 
is that the forces are stretched too thin.
    Is that true and is that affecting our ability to deal with 
counterterrorism in Afghanistan? And are we still using the 
element of--the strategy that I saw, there in 2007 and 2008, 
where we were finding, fixing, finishing, and exploiting, is 
that still being utilized?
    General Dunford. Congressman, the last part of your 
question is, yes. That methodology is still the same 
methodology that we use to go after the enemy from a CT 
[counterterrorism] perspective. And I would say we have 
sufficient special operations forces to do the mission today.
    But the issue you raise is a concern, that we are running 
them too hard and in some cases, maybe, are there missions that 
they are performing that could be done by other forces. And the 
Secretary, about 4 or 5 months ago, right after he came into 
office, asked us to make sure that as we were doing Global 
Force Management, meaning every day looking at the requirements 
of the combatant commanders, number one, we made sure that only 
if something required special operations forces, would they go 
to that force. And then, we looked to backfill certain 
assignments that were being filled by special operations forces 
with other capabilities. And for example, this advisory effort, 
the vast majority of the advisors that will be going in is a 
result of the plan that has been approved by the Secretary--our 
conventional forces, the Army and the Marine Corps will provide 
conventional forces to be able to provide that advisory effort.
    Because we are sensitive to the fact that special 
operations forces are critical, not only to the 
counterterrorism fight but also to the Russia, China, Iran, 
North Korea fight as well. And getting the balance right, not 
only from a day-to-day engagement perspective, but making sure 
that they can train against the full range of missions that 
special operations require is something that we are very 
sensitive to, Congressman.
    Mr. Panetta. Understood. When--back in 2007, 2008 we were--
well the FATA, the Federally Administered Tribal Areas were, to 
me, seemed kind of like the Wild West. And I remember the town 
of Wanna, in I think it was South Waziristan, kind of reminded 
me of the town of Tombstone. Is it still like that and can we 
be assured that Pakistan is going to be able to patrol and 
control those areas when it comes to breeding grounds for 
terrorists?
    Secretary Mattis. As you know, Congressman, the Federally 
Administered Tribal Area, the North-West Frontier has a long 
history of discontent--would be a polite way of describing it. 
But I would also say that since the partition, it is called the 
Federally Administered Tribal Areas for a reason. In other 
words, it is not a state.
    And you understand that it has been an area that has been 
very hard for Pakistan to maintain the same kind of control as 
it has down in the settled areas, for example. But that said, 
they have been running some very strong operations up there. 
They have lost, as you know, many of their own troops in this 
fight.
    And they have just completed one set of operations that 
moved against the border on several lines of effort. And those 
obviously had some of the effect of pushing people over into 
Afghanistan--enemy over there.
    So 3 days ago, the chief of army staff from Pakistan flew 
into Kabul, and this is the first time I have heard of a visit 
actually creating some degree of optimism. And so we will see. 
There is reason for us to say there is a new day here. But it 
is too early for me to come in front of this committee and 
pronounce that with confidence.
    I will fly in to Islamabad soon, after the Secretary of 
State is done, so as the lead for our foreign policy, I will 
fly in, and we will continue to try to work with them cross-
border operations against what can only be described as our 
common enemy. And we will see if we can make this work this 
time.
    Mr. Panetta. Thank you. Gentlemen, thank you. Mr. Chairman, 
I yield back. Thank you.
    The Chairman. Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman. Secretary Mattis, 
General Dunford, thank you for being here.
    As an Afghanistan war veteran myself, I represent tens of 
thousands of Americans who have served there that want to know 
that our service and sacrifice meant something.
    And that is why, Secretary Mattis, I applaud your work and 
the change of course in Afghanistan. That is why your change in 
strategy recently brought me great hope and optimism that we 
will turn the tide and fight the war to win it, rather than 
fight 14 separate 1-year wars that have resulted in what we see 
today.
    I want to focus first, for a moment, on the specific 
mission of CSTC-A [Combined Security Transition Command-
Afghanistan], and the over $70 billion that we have spent in 
ANSF [Afghan National Security Forces] funding. And I know we 
have talked already about the wasted money on uniforms, but 
every week a different story piles up in a stack of stories 
that you can find by googling waste in Afghanistan.
    From the headlines that I brought with me today, 43 percent 
of America's military weapons unaccounted for, Afghan forces 
lost $700 million in U.S. ammo, U.S. unsure if Afghan intel 
service even works despite half a billion dollars in aid, $28 
million wasted on Afghan uniforms, wasted money on payroll, 
wasted money on construction. You get the point. The list goes 
on and on. And these aren't stories from 10 years ago; these 
are stories from the last couple of years.
    So my first question is what--I know you have already 
talked about the general--the lessons learned. But what are we 
putting in place within the structure of CSTC-A? What type of 
process are we creating to raise the level of accountability on 
this investment that we are making in the Afghan National 
Police and the Afghan military?
    General Dunford. Congressman, that is a great question. 
About 2012, maybe it was even as early as 2011, in order to 
develop Afghan capacity, we started to move money to a, what we 
called on budget, meaning we gave the money to the Afghans for 
them to manage. At one point, I think we had well over 70 
percent of the money that we were giving to the Afghan forces 
that was on budget.
    We have actually walked that back. Now less than 25 percent 
of the money is actually administered by the Afghan government; 
75 percent is administered through us. And for that 25 percent, 
we have put in some rigorous conditionality--you talk about the 
lessons learned--rigorous conditionality to make sure that we 
have transparency.
    And President Ghani, unlike his predecessor, has allowed us 
to get into the ministries where the money is being 
administered, check the books, be able to do an audit just as 
we would for, you know, on our own accounts. And I am confident 
in telling you this, that the $4 billion-plus that we provide 
to the Afghan security forces every year, our commander will 
have in CSTC-A, as his executive organization, will have 
visibility.
    And I expect to be able to come back up to you and talk to 
you about the transparency and accountability that we have over 
those resources.
    So we have learned some lessons, but I think one of the 
more significant ones is that we are now delivering capability 
and equipment, and they are not--they weren't quite ready for--
to execute the entire budget and have the kind of same 
standards that you suggest----
    Mr. Banks. Thank you, General. As a follow-up to that, how 
do we know, today more than ever, after supplying 14 years of 
weapons and ammunition, vehicles, uniforms, that we are giving 
the Afghans what they need and not what they want?
    General Dunford. Well, I think that is a constant process 
of refinement. But here is what I want to tell you--is the 
glimmers of hope. You know, we bought Stryker vehicles--those 
are being employed right now, and they actually have provided a 
competitive advantage to the Afghan forces over over their 
counterparts.
    The aviation enterprise, actually, is a success story, and 
I think you--I don't know if you have been back recently, but I 
would hope, when you go back, you can see the Afghan air force 
in particular. So we delivered an A-29--it is an aircraft that 
is relatively simple to learn, simple to fly. As one of the 
Congressmen mentioned--that we bring the pilots back to Moody 
Air Force Base--they are going back, and they are being able to 
sustain that effort.
    So I believe, right now, that the lessons learned over the 
last few years have highlighted for us what equipment works, 
what equipment doesn't work. And to be honest with you, we do 
need to improve the accountability of equipment, the 
maintenance procedures, and so forth. That is an area that the 
advisory effort is designed to address, as well.
    Mr. Banks. I have 30 seconds left. I wish I had 30 minutes.
    But when we talk about rule of law in Afghanistan, it seems 
to me that one of the greatest inhibitors to rule of law is 
Vice President Dostum. What are we doing to prevent him from 
continuing to wreak havoc on the security--or on the rule of 
law situation in Afghanistan, as he returns to country and 
returns to his position?
    Secretary Mattis. I think the most important thing is we 
are reinforcing the positive elements in the country, and not 
leaving them to deal with these kinds of issues that Dostum 
represents on their own.
    This is--we are looking at bringing in gendarmerie kind of 
police trainers--not from the U.S., but from those countries 
that maintain gendarmes, so that the police themselves are more 
capable of carrying out the rule of law.
    It--you have got to have the right kind of police force. 
Then you need to have the right kind of courts. And again, 
there is nothing easy about it because of what happened to that 
society, what it has been through. But I think that the right 
thing to do is to reinforce the positive side and keep working 
against those who are disruptive.
    And right now, we obviously are trying to work by, with, 
and through the Afghan government on it. But we register loud 
and clear the concern that that is, in terms of trying to get 
the rule of law, reduce the corruption, and get this country on 
the right track so we can draw down what we are doing and leave 
them more on their own.
    Mr. Banks. Thank you. Yield back.
    The Chairman. Mr. Suozzi.
    Mr. Suozzi. Thank you, Mr. Chairman.
    Mr. Secretary, General Dunford, thank you so much, again, 
for your service. You inspire tremendous confidence.
    I traveled to Afghanistan in April of this year, and at the 
time, General Nicholson was making his request or--and 
logically supporting his idea that we should increase the 
number of troops by 3,000. And I publicly supported that effort 
with the understanding, though, that those troops would be used 
for force protection and to replace private contractors.
    Are the troops being used for those purposes, or are they 
being used to implement this strategy of moving down lower into 
the brigades?
    Secretary Mattis. Both, Congressman, both. Obviously, some 
will be in force protection of those advisors that are out 
there. And certainly, we are going to make certain that, where 
we can bring in an Army unit coherent, rather than breaking it 
up and bringing in high-paid contractors--that was forced by 
the troop cap, and I am not condemning anyone who did it in the 
past, but it is not the way we want to go.
    Mr. Suozzi. Thank you, Mr. Secretary.
    So the problem of ungoverned areas--there is a problem on 
the Afghani side in Nangarhar province and other places where 
the troops would not take offensive action, as they more or 
less wait at checkpoints, and the Afghan army would do that.
    And there is a problem on the Pakistani side. I met with 
the Pakistani ambassador about 4 months ago, and they said that 
they were starting to do more efforts in their ungoverned 
areas. You have affirmed that today.
    And you said earlier in your testimony that all six corps 
are currently in offensive actions. Does that mean that they 
are now moving beyond their checkpoints and that they are 
moving out into these ungoverned areas?
    Secretary Mattis. It does. But let me be very specific--it 
means that in each of the corps areas they have offensives 
under way; that doesn't mean everyone is doing that. In some 
cases, they are simply holding their own, holding the district 
centers, but there are offensive actions in each area--in each 
corps area right now.
    Mr. Suozzi. Are we encouraging them to move into the 
ungoverned areas on their side of the border?
    Secretary Mattis. Principally we are encouraging them to 
hold and protect the populated areas, but at the same time--I 
was just in Nangarhar last Thursday, and they certainly have 
offensive actions underway in Nangarhar. And as you know, that 
is right along the border there.
    Mr. Suozzi. And another major initiative was to get our Air 
Force to train their air force how to coordinate better with 
their military--with their army and their air force to 
coordinate better with each other. Is that happening? I will 
ask General Dunford.
    General Dunford. Congressman, it absolutely is. You know, 
we have talked a lot today about the advisors at the brigade 
and the kandak level. We have an equally robust effort with the 
Afghan air force, where our very best and brightest airmen are 
over there training with them as well.
    And the key is--you just hit on really, I think one of the 
key points we wanted to make today--is that the ability of the 
Afghan ground forces to integrate the Afghan air force is a key 
link.
    And because we haven't had advisors down there at the level 
where that kind of coordination takes place, they haven't 
matured as fast as we want. One of the primary outcomes that we 
expect from our changed advisory posture is the Afghans being 
more effective in the ability to what we call integrate 
combined arms; that is, the artillery and air support they need 
to be successful in their maneuver.
    Mr. Suozzi. One thing--this is a separate question--I think 
that most Americans don't appreciate the difference between 
these transnational terrorists that operate out of Afghanistan 
that we are trying to constantly disrupt and the Taliban and 
how that is a completely different type of terrorist 
organization that is more focused on regional impact. Have the 
rules of engagement changed for the Taliban as part of this 
change in rules of engagement? Or have they only changed for 
the multinational terrorist organizations?
    General Dunford. Congressman, when we--the authority that 
has been passed down to the commander by the President is that 
any individual or any group that threatens the Afghan 
government, threatens our mission, threatens U.S. forces. or 
threatens the coalition can be engaged. So, it is based on 
their behavior and what they are doing as opposed to what group 
they are a part of.
    Mr. Suozzi. So, our special forces will seek out members of 
the Taliban if we believe they are engaged in terrorist 
activities?
    General Dunford. Our special operations forces will seek 
out groups or individuals that are actually threatening the 
mission or our people.
    Mr. Suozzi. Okay. Thank you very much. I yield back. Thank 
you, Mr. Chairman.
    The Chairman. Thank you.
    We have now gone through all of the members who were here 
at the gavel, and we have already held the Secretary and the 
chairman longer than we had intended.
    So, what I want to do to wind up is see if the remaining 
members have one 15-second question that we have not addressed 
yet--and I want to get them all out together and then give the 
Secretary and the chairman a chance to wind this up.
    Ms. Cheney, did you have something that we have not yet 
touched on?
    You do? Okay, 15 seconds.
    Ms. Cheney. Thank you, Mr. Chairman. I would like to thank 
both of you for being here, and thanks for allowing us to 
conduct our oversight obligations, but mostly thank you for 
reminding us that we have our own constitutional obligation, 
and that is to support, raise, maintain our Armed Forces.
    And as often as you can this notion of the BCA, the extent 
to which the BCA is damaging us, we are in a position where I 
am completely dismayed as a new Member of Congress, at the 
extent to which there is agreement about the damage of the BCA 
and then people walk away and don't do anything about it.
    And as we come up again to December 8th it is going to be 
crucial that we take this on. I can assure you both this is 
something we take seriously. We cannot fulfill our 
constitutional obligations with the BCA in place, and I want to 
thank you for raising it; thank you very much for being here 
today.
    That is it, Mr. Chairman.
    The Chairman. It was great. It was a little more than 15 
seconds, but it was good.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And really quickly, my question was partly how do we avoid 
empowering the factions that grow up out of the voids that are 
often created as the government begins to, you know, take hold?
    And are we at a point that we cannot use quantity as much 
as a metric but quality? And I am thinking about some of the 
work that has been done not just in the Afghan military but 
also among the women who are being trained for the Afghan 
police and for other jobs? Because they seem to have more 
capability than they are allowed to utilize. That takes 
security, but I am wondering where we are going with that.
    The Chairman. Ms. Gabbard, did you have----
    Ms. Gabbard. Briefly, so much of what has been discussed 
today and the justification for our continued open-ended 
presence in Afghanistan centers around preventing it from being 
a safe haven for terrorists who launch attacks against us.
    The issue is that there is a long list of countries around 
the world who fall under this category of being a physical safe 
haven. What to speak of the phenomena of the internet now 
making it so that a physical safe haven is not even required 
for a terrorist to plan and launch an attack on us or on our 
interests or allies.
    So, my question is a big one, and maybe you can follow up 
with me--but how do you justify the expenditure, the open-ended 
presence, this forever war in Afghanistan given the global 
threat that we are facing both physically and electronically?
    Thank you.
    The Chairman. Mrs. Murphy.
    Mrs. Murphy. Just very quickly, in President Trump's speech 
in August he stated that one of the core pillars of his 
salvation strategy is to take a more aggressive approach 
towards managing our relationship with Pakistan. Specifically, 
he said, ``We have been paying Pakistan billions and billions 
of dollars. At the same time they are housing the very 
terrorists that we are fighting, but that will have to change, 
and that will change immediately.''
    I think it is fair to say that our relationship with 
Pakistan is complicated, and I think it is important that we 
understand what Pakistan is doing and what they are not doing 
as it relates to our relationship. And that is why I am 
planning on introducing some legislation that would get the 
intel community to account for that. It was an idea that was 
proposed in the 2009 Af-Pak policy review.
    But my question for you today is what tools does DOD 
currently have at its disposal to calibrate our security 
relationship with Pakistan and compel them to act in a way that 
is helpful rather than harmful to the United States?
    The Chairman. And Mr. Khanna.
    Mr. Khanna. Thank you, Mr. Chairman.
    Very briefly--I don't know if you had a chance to see the 
Saudi ambassador's op-ed in the New York Times this morning. It 
would be the definition of propaganda and fake news. If we are 
going to be involved in Yemen against Al Qaeda, that makes 
complete sense, but could you assure the committee and the 
American people that we will not aid in any way the Saudi 
Arabia--Saudi Arabia in its war against the Houthis and in its 
gross human rights violations?
    The Chairman. Thank you all for agreeing to do that.
    Secretary Mattis. Well, let me, Chairman, take a first stab 
at this and then bring the chairman in wherever he believes I 
missed something or has more. As far as the buildup of factions 
in Afghanistan as we get rid of terrorists in certain areas, so 
long as those factions become ones that are part of the 
political process, we will not get choosy about which ideas can 
come forward. That is for the Afghan people to sort out.
    But I think, too, that we have seen enough progress in some 
parts of Afghanistan and the younger people are different based 
upon the education that is now reaching boys and girls, which 
is a big change. And I think that we will see the Afghan people 
choosing better which factions--hopefully political factions, 
they can support.
    On quality versus quantity, we are also carrying that theme 
forward. In that regard, if a unit is--cannot fight well, if we 
find there are too many ghost soldiers, there is no requirement 
for that unit to be maintained on the rolls. Take the good 
soldiers who are in it, transfer them to an effective leader, 
an effective unit, and go with quality not quantity.
    About the women who are serving and they continue to go 
through the training, obviously there is a cultural aspect to 
their service. That is a reality everywhere in the world. Every 
nation has its own culture. But at the same time, we would not 
be having even the discussion about women serving or reducing 
the number of Afghan units to only the quality ones if we were 
meeting here 10 years ago. So it is somewhat a challenge for 
us, but it is a good challenge to have as we go forward here.
    On the havens and the concern there, the reason we shifted 
to a ``by, with, and through'' global approach to terrorism is 
exactly what you bring up. We could eventually pour our troops 
into so many ungoverned spaces, so many havens that we wouldn't 
have enough troops to go around.
    So the way we invest our troops is, and I can show this to 
you in private--it is classified for obvious reasons. I can 
show you what it is we do for every troop invested, how many 
coalition troops do we have in North Africa with us, how many 
African troops do we have. If you go to Somalia, I can tell you 
what is going on there. If we go to the Korean Peninsula, I can 
show you what 28,000 or whatever it is U.S. troops bring in 
terms of the 3 million-man South Korean army.
    So what we are looking at as we look broadly across the 
world, how do we deal with the geographic havens in a way that 
we do things by, with, and through others.
    Now on--you make a very good point about the virtual 
havens, about the internet and this sort of thing. Different 
problem set, needs a different response. And in that one, I 
think education is one of the most bulwarks against this taking 
over young people's hopes and dreams, and turning them into 
what we have seen in various places.
    I would just tell you that exchange programs, USAID efforts 
to keep libraries open, virtual libraries open, as we promote 
ourselves and take our own side in this fight. But I think it 
has got to be addressed differently and perhaps that is not 
where the military should have the lead. That is addressed 
separately.
    On the Pakistan relations and what tools do we have, we 
have diplomatic tools, diplomatic isolation by more and more 
nations that are growing--excuse me, joining together with 
Secretary Tillerson's Defeat ISIS campaign.
    That, ma'am, is 69 different nations joined together to 
fight ISIS from all around the world, plus Arab League, NATO, 
European Union, and INTERPOL so that we can trace these foreign 
fighters as they try to go home or try to move across 
boundaries, this sort of thing.
    All of this shows an increasing alliance against terrorism, 
and any nation that would then support it or be seen to 
providing havens would be running afoul of basically the most 
powerful economically and diplomatic, militarily powerful 
nation in the world. We also have economic tools from loan 
guarantees and working with other countries on what access 
people have with certain banking tools and this sort of thing.
    As far as Yemen goes, we are engaged in antiterrorism 
campaigns only right now and where we work with the others, it 
is to reduce civilian causalities and it is to try to drive 
this or draw this into the U.N.-brokered peace negotiation to 
end the civil war there between the Houthis and the U.N.-
recognized and Saudi-supported Hadi government.
    Miss anything?
    General Dunford. Mr. Secretary, I think you gave a very 
comprehensive answer to each of those questions.
    Secretary Mattis. We are all tired.
    The Chairman. Let me--Mr. Secretary, let me just add one 
thing back to Ms. Cheney's point and it is really how we 
started, talking about stability. Stability of commitment and 
stability of funding--in addition to stability, adequacy is 
also necessary for funding. Many of us were very pleased to see 
the President at the U.N. endorse the level of funding that has 
already passed the House authorization, the House 
appropriation, and the Senate authorization bill.
    Working together, I think it is essential that we get that 
across the finish line so that whether you are the Taliban or 
the Russians or the Chinese or whoever, you know that we are 
going to stand up and defend ourselves with adequate resources 
to do so. That is a key part of our mission as well as working 
with you, so I appreciate that.
    Thank you all for being here. I think this was very 
helpful. The hearing stands adjourned.
    [Whereupon, at 4:10 p.m., the committee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                            October 3, 2017

=======================================================================

      


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 3, 2017

=======================================================================

     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            October 3, 2017

=======================================================================

      

                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. I am encouraged that in his August 21st speech, the 
President seemed to arrive at the same conclusion many of us had 
previously reached--that, quote, ``the consequences of a rapid exit are 
both predictable and unacceptable,'' end quote--however, we are still 
light on details as to what makes this new strategy in Afghanistan and 
Asia so new, and we have seen nothing on paper. So what are the metrics 
you intend to use to define success or failure in Afghanistan moving 
forward, and what conditions will need to be met before considering a 
withdrawal of troops? Will this alter any rules of engagement in order 
to meet these metrics more swiftly?
    Secretary Mattis. The new South Asia Strategy is different than 
past approaches to Afghanistan in several important ways. One important 
difference is that the Department is not tied to arbitrary timelines 
for withdrawals. Our presence in Afghanistan is based on conditions on 
the ground. Another important difference is that we have a willing and 
increasingly capable partner in Afghanistan that is leading this fight. 
Our overarching goals in Afghanistan, which we expect Afghanistan to 
work towards to maintain our support--the conditions we will be 
measuring against--are as follows: terrorist groups cannot exploit 
sanctuaries in Afghanistan to plan and stage attacks against the U.S. 
homeland, U.S. citizens, or our allies and partners overseas; the 
Afghan government counters corruption and is viewed as a legitimate 
government by its citizens; the Afghan National Defense and Security 
Forces (ANDSF) continue to professionalize and reduce corruption; the 
ANDSF secures more of the Afghan population and territory; regional 
actors support a stable Afghanistan; and the Afghan and Pakistani 
governments work together to secure the border. We seek a comprehensive 
political settlement that includes relevant parties, including the 
Taliban. We will adjust our personnel numbers as needed to help realize 
these goals. The Department is developing a framework to assess the 
effectiveness of the new strategy. This framework will help us 
understand progress and communicate to a number of audiences. The 
Department takes its responsibility to the U.S. public and Congress 
very seriously, and when possible to measure progress in tangible, 
quantifiable terms, we will do so. It is important to note, however, 
that many aspects of the strategy, including political stability, 
reconciliation, and our relationship with regional countries will be 
very difficult, if not impossible, to measure in real time. We will 
endeavor to provide you with the most accurate information. Regarding 
rules of engagement, I have already approved expanded authorities that 
allow for more tactical-level support to the ANDSF. The new authorities 
also remove certain restrictions that made it difficult for our 
military personnel to engage the enemy. Expanded authorities and more 
flexible U.S. advisory efforts will help the ANDSF increase pressure on 
militants and drive them towards a durable political settlement.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SPEIER
    Ms. Speier. This question is not related to Afghanistan, but I want 
to take this opportunity with both of you here to ask you to please 
respond for the record. And, given that I have yet to receive any 
answers to my questions for the record from when you were both here in 
June, I ask that you be prompt with your response.
    On Sunday, the Washington Post reported on the case of Air Force 
Colonel Ronald Jobo, who sexually harassed and assaulted a female 
civilian subordinate. Colonel Jobo repeatedly said he wanted to have 
sex with her, tracked her movements and sent her recordings of him 
masturbating in the shower. Twice, he trapped her in the office, 
grabbed her arms and forcibly tried to kiss her. There is documentation 
to substantiate all of these charges, including texts, videos, and a 
photo of the bruises Jobo left on the woman's arm. Colonel Jobo 
admitted to all of this.
    However, Lieutenant General John Thompson, the senior officer in 
Jobo's chain of command, decided against charging Jobo with abusive 
sexual contact, or any crime at all. Instead, General Thompson imposed 
nonjudicial punishment, allowing Jobo to retire at the rank of 
Lieutenant Colonel, and will continue to collect a military pension for 
the rest of his life. The Air Force tried to keep all this secret until 
the case was leaked to the media.
    I want to know how a decision was made that non-judicial punishment 
was an appropriate remedy for such a clear-cut case of sexual 
harassment and physical assault.
    Secretary Mattis. I share your concern that appropriate justice is 
applied to cases of sexual harassment. The Secretary of the Air Force 
has ordered a review of this case and she will provide you an update 
upon completion.
    Ms. Speier. This question is not related to Afghanistan, but I want 
to take this opportunity with both of you here to ask you to please 
respond for the record. And, given that I have yet to receive any 
answers to my questions for the record from when you were both here in 
June, I ask that you be prompt with your response.
    On Sunday, the Washington Post reported on the case of Air Force 
Colonel Ronald Jobo, who sexually harassed and assaulted a female 
civilian subordinate. Colonel Jobo repeatedly said he wanted to have 
sex with her, tracked her movements and sent her recordings of him 
masturbating in the shower. Twice, he trapped her in the office, 
grabbed her arms and forcibly tried to kiss her. There is documentation 
to substantiate all of these charges, including texts, videos, and a 
photo of the bruises Jobo left on the woman's arm. Colonel Jobo 
admitted to all of this.
    However, Lieutenant General John Thompson, the senior officer in 
Jobo's chain of command, decided against charging Jobo with abusive 
sexual contact, or any crime at all. Instead, General Thompson imposed 
nonjudicial punishment, allowing Jobo to retire at the rank of 
Lieutenant Colonel, and will continue to collect a military pension for 
the rest of his life. The Air Force tried to keep all this secret until 
the case was leaked to the media.
    I want to know how a decision was made that non-judicial punishment 
was an appropriate remedy for such a clear-cut case of sexual 
harassment and physical assault.
    General Dunford. The Joint Force is steadfast in its commitment to 
properly investigate and address all reports of sexual harassment and 
other misconduct--regardless of the rank or status of the offender or 
victim. Commanders have the legal and moral duty to hold their Service 
members accountable for their actions. With the advice of their staff 
judge advocates, commanders determine how to most appropriately address 
misconduct by considering the relevant circumstances and unique facts 
of each case. Detailed information on this case may be obtained from 
the Air Force as the Services are best positioned to provide specifics 
concerning their members' misconduct and the procedures and decisions 
associated with addressing such misconduct.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SCOTT
    Mr. Scott. The USAF briefed Congress earlier this summer indicating 
the Joint Surveillance Target Attack Radar System (JSTARS) Recap 
program was on schedule for award and funded.
    Now, within 6 months of that briefing, the USAF is now saying the 
program does not support future warfighting needs and new alternative 
approaches to the mission need to be studied? I do not understand how 
the USAF has conducted an Analysis of Alternatives (AOA) and multiple 
studies since 2009 that validated the program approach and now at the 
11th hour, plan to do another study to yet again evaluate alternatives. 
Please explain the logic of this action.
    Secretary Mattis. The Air Force continually assesses the evolving 
threat environments our adversaries present, and the risks these 
increasingly complex environments pose to current and future Programs 
of Record. These environments threaten our ability to provide 
battlespace awareness required in the highly contested operational 
environments of 2030 and beyond in the manner which we have in the 
past. To ensure the Joint Surveillance Attack Radar System (JSTARS) 
Recapitalization program is a prudent way forward, the Air Force is 
reviewing alternative approaches for providing Ground Moving Target 
Indicator and Battle Management Command and Control that could be more 
effective in highly contested environments. The source selection for an 
Engineering and Manufacturing Development for a follow-on contract to 
JSTARS is ongoing. If it is determined that JSTARS Recapitalization is 
the best way forward, source selection, which began in March 2017, is 
projected to be completed by the end of Fiscal Year 2018.
    Mr. Scott. The USAF has been telling Congress that JSTARS Recap is 
a priority with validated Joint Requirements Oversight Council (JROC) 
requirements with less than 5% of airborne Ground Moving Target 
Indicator (GMTI) mission requirements from the COCOMS being fulfilled 
and yet, the USAF is now floating the idea of cancelling the Recap 
program? I would like to understand the logic behind this decision, why 
it is happening at this point in this program, and how using the 
alternative assets General Holmes, the commander of Air Combat Command 
(ACC), alluded to in his statements will satisfy COCOM needs and 
increase meeting the validated JROC requirements.
    Secretary Mattis and General Dunford. Concerns about the value of 
Joint Surveillance Target Attack Radar System Recapitalization in a 
changing threat environment have motivated the Air Force to reassess 
its investment priorities. The Combatant Commands and Joint Staff are 
reviewing potential capabilities and alternatives under consideration 
by the Air Force.
    Mr. Scott. For the last 5 years, the USAF has asked us to support 
this critical national mission area and we have done just that, but now 
they are saying it is no longer needed due to the new threat? Please 
explain to us how other assets support the USAF 2030 roadmap if the 
JSTARS Recap weapon system is not survivable in that environment? Is it 
your view that the United States will need to replace every weapon 
system in the USAF inventory, to include Compass Call cross-deck and E-
2 Hawkeye aircraft, because of this new threat over the next 10 years? 
If yes, what is the DOD strategy to execute this?
    Secretary Mattis and General Dunford. The unique capabilities and 
roles of any individual system mean that any decisions about Joint 
Surveillance Target Attack Radar System Recapitalization would not 
necessarily be applicable to other platforms. Our potential 
adversaries' intent to deny our access to their battlespace requires us 
to carefully study the right mix of capabilities for command and 
control of our forces in the future.
    Mr. Scott. The USAF has discussed using an alternative mix of 
manned and unmanned assets to perform the E-8C mission in lieu of 
pursuing JSTARS Recap. Do the COCOMS or the Joint Staff concur with 
this assessment and strategy?
    General Dunford. The Combatant Commands and Joint Staff will assess 
the ability of alternative architectures to meet joint requirements as 
these alternatives mature.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MOULTON
    Mr. Moulton. Chairman Dunford indicated in his answer to 
Congressman Moulton's question as to whether State Department political 
engagements with Afghan governmental and tribal leaders are being 
``pushed down to lower levels'' commensurate with our military advise 
and assist mission--he replied ``not yet.'' What aspects of the Joint 
effort can be better resourced to leverage collaboration between DOD 
and State Department efforts on ensuring Afghan governmental 
institutions are able to govern, provide citizen security, and 
eliminate corruption?
    Secretary Mattis. The President's South Asia Strategy is a whole-
of-government effort. The Department of Defense, Department of State, 
the United States Agency for International Development (USAID) and 
other departments and agencies must be appropriately authorized and 
resourced to implement the new strategy. U.S. implementation efforts 
include: supporting Afghan government efforts to promote economic 
development, health, and education; combatting corruption and the 
narcotics trade; and strengthening the Afghan government's capacity to 
deliver public services. I defer to the Department of State and USAID 
on their specific resource requirements and their approach to support 
grass roots political engagements. Resolute Support and the U.S. 
Embassy in Kabul are working closely with each other and with the 
Afghan Ministries of Defense and Interior in a process known as the 
``Kabul Compact.'' The Compact, completed in August 2017, establishes a 
series of benchmarks to monitor and measure Afghan progress in four 
main areas: governance, economic development, the peace process, and 
security. We have made it clear to the Afghans that they must weed out 
corrupt officials from the military and government, and President Ghani 
has recently launched very promising anti-corruption reforms. We have 
also begun a new phase of the fight against the Taliban by going after 
their narcotics trade, which directly funds their insurgency.
    Mr. Moulton. In response to a question from Congressman Moulton, 
Secretary Mattis stated that the administration's elimination of the 
Office of the Special Representative for Afghanistan and Pakistan (S/
RAP) has ``not impacted'' regional political engagement--yet this 
office was specifically designed to better coordinate whole-of-
government efforts. What office or high-level official is charged with 
executing the regional political strategy the Trump White House and 
Secretary Mattis have outlined? How can the State Department and 
Defense Departments be best resourced and positioned to advance this 
regional political dialogue?
    Secretary Mattis. There is no single office or official in charge 
of implementing the South Asia Strategy. The strategy flows from the 
White House down to all relevant stakeholders, and we endeavor at every 
level to make sure our whole of government efforts are synchronized. 
With the dissolution of the Special Representative for Afghanistan and 
Pakistan (SRAP) office, the Assistant Secretary of State for South and 
Central Asian Affairs assumed the SRAP's function, and the departments 
work together to implement the South Asia Strategy. I cannot speak to 
resourcing the State Department, but I have previously noted that it is 
imperative that Congress pass a budget and not rely on continuing 
resolutions. It is difficult for any Department or Secretary to carry 
out our shared mission without proper and predictable funding.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MS. ROSEN
    Ms. Rosen. Secretary Mattis, what is the status of reconciliation 
efforts with the Taliban and how does that status affect the security 
environment in Afghanistan and the Afghan unity government?
    Secretary Mattis. Reconciliation is a State Department-led effort 
the Defense Department supports. The security environment in 
Afghanistan is improving as we continue to train, advise, and assist 
the Ministries of Defense and Interior. As the Afghan National Defense 
and Security Forces (ANDSF) get stronger and more capable, the Taliban 
will realize they cannot wait us out, and they cannot escape the 
pressure of the ANDSF. The ultimate goal of our military efforts is to 
force the Taliban to recognize it cannot win on the battlefield, and 
must turn instead towards a negotiated political settlement with the 
Afghan government. We remain committed to maintain the unity of the 
government of Afghanistan as we drive towards an ultimate peace 
settlement.
    Ms. Rosen. Secretary Mattis, what specific demands will the United 
States make of Pakistan? Why do we expect Pakistan to change behavior 
now, after 16 years of conflict in Afghanistan?
    Secretary Mattis. The United States desires a pragmatic partnership 
with Pakistan that serves our mutual interests; however, Pakistan must 
change its behavior. The Department considers a variety of tools, 
including diplomatic and economic means, to expand our cooperation 
where our interests converge and to advance our interests in areas of 
divergence. Our approach to Pakistan is designed to demonstrate to 
Pakistan where its interests converge with the interests of the 
international community.
    Ms. Rosen. Secretary Mattis, our new strategy in Afghanistan will 
no longer include nation building. Will the U.S. continue to provide 
diplomatic and foreign aid support to help bring about a political 
solution to the conflict, in order to facilitate conditions that would 
allow for a responsible U.S. military withdrawal to be possible?
    Secretary Mattis. The United States is in Afghanistan to make the 
U.S. homeland, U.S. citizens, and our allies and partners safer, not to 
nation build. As the President stated in his August 21 address, a 
fundamental pillar of the new South Asia Strategy is the integration of 
all instruments of U.S. power--diplomatic, economic, and military--
toward a successful outcome. Therefore, the strategy does include the 
use of diplomacy in support of a political settlement and foreign aid 
to facilitate economic growth and decrease Afghanistan's reliance on 
donor assistance. I defer to the State Department and U.S. Agency for 
International Development for details on these efforts. The Defense 
Department is responsible for training, advising, and assisting the 
Afghan forces, as well as for a small amount of counterterrorism 
missions, all designed to bring the Taliban to the negotiating table 
with the Afghan government.
    Ms. Rosen. General Dunford, a recent SIGAR publication on U.S. 
efforts to train the Afghan National Defense and Security Forces 
painted a bleak picture of our ability to build a sustainable and 
capable force. Are you confident that the United States is making 
progress toward building a capable force in Afghanistan?
    General Dunford. I'm confident our efforts will drive progress 
building Afghan capacity to provide security in their country. We 
continue to see improvement in many areas of the Afghan forces, notably 
the Afghan Special Security Forces and the Afghan Air Force. Our 
previous efforts helped build the foundation to enhance Afghan 
capability to provide security for their country. The new South Asia 
Strategy accelerates those efforts, aligns them with President Ghani's 
Roadmap, and ensures synergy with our broader regional objectives. We 
will support President Ghani's doubling of the Afghan Special Security 
Forces, aligning our efforts with this expansion and providing robust 
tactical level advising to their forces, exploiting the unique 
capability Special Forces bring to the fight. We will also support 
President Ghani's efforts to expand and modernize the Afghan Air Force. 
A sustainable Afghan Air Force that can integrate with Afghan National 
Army ground operations is a critical component of Afghan stabilization 
efforts and our long-term strategy. It will take time to fully mature 
this capability, but our efforts with the Afghan Air Force are already 
contributing on the battlefield, to include increased special mission 
wing support to counter-narcotics and counterterrorism missions as part 
of the summer 2017 campaign. Morale remains high and Afghan Air Force 
attrition is consistently less than 1 percent of the force. By the end 
of 2020, their fleet will consist of over 200 aircraft. In parallel, 
Afghan maintenance capability continues to mature, and this year they 
were able to maintain their Mi-17s and C-208s with limited to no 
coalition or contract logistics support. The SIGAR report noted 
introduction of the A-29 aircraft and associated pilot training as an 
example where the United States had succeeded. We're expecting similar 
success with the introduction of the UH-60 Blackhawk, the first of 
which arrived in September and are already being used to train Afghan 
aircrews in Afghanistan.

                                  [all]
</pre></body></html>
